 DEPARTMENT OF HOMELAND SECURITY

        Office of Inspector General


               Acquisition of the
            National Security Cutter
                 U.S. Coast Guard




OIG-07-23                           January 2007
                                                                       Oflce of Inspector General

                                                                       U.S. Department of Homeland Security
                                                                        Washington, DC 20528



                                                                            Homeland
                                                                            Security
                                          January 23,2007

                                             Preface


The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established by
the Homeland Security Act of 2002 (Public Law 107-296)by amendment to the Inspector General
Act of 1978. This is one of a series of audit, inspection, and special reports prepared as part of our
oversight responsibilities to promote economy, efficiency, and effectiveness within the department.

This report addresses the strengths and weaknesses of the acquisition of the U.S. Coast Guard's
National Security Cutter. It is based on interviews with employees and officials of relevant agencies
and institutions, direct observations, and a review of applicable documents.

The recommendations herein have been developed to the best knowledge available to our office, and
have been discussed in draft with those responsible for implementation. It is our hope that this
report will result in more effective, efficient, and economical operations. We express our
appreciation to all of those who contributed to the preparation of this report.



                                      Richard L. Skinner
                                      Inspector General
Table of Contents/Abbreviations

Executive Summary ...............................................................................................................................1

Background ............................................................................................................................................2

Results of Audit .....................................................................................................................................5

    Cost Increases and Schedule Changes. .............................................................................................7

    NSC Design Deficiencies .................................................................................................................8

    U.S. Navy Design Concerns ...........................................................................................................12

    Coast Guard Technical Authority Within the Deepwater Program ................................................12

    Deepwater Award Term Decision Assessment...............................................................................16

    Documentation Supporting Key Deepwater Decisions ..................................................................16

    Office of Inspector General Access to Personnel and Documentation...........................................18

    Current Status of the NSC...............................................................................................................21

Conclusions and Recommendations ....................................................................................................21

Management Comments and OIG Analysis ........................................................................................23


Appendices
   Appendix A: Purpose, Scope, and Methodology............................................................................45
   Appendix B: Management’s Comments to the Draft Report ........................................................47
   Appendix C: Memorandum from Assistant Commandant for Acquisition to
               Vice Commandant, Request for SAM Waiver; Deepwater Capability
               Replacement Project, April 26, 2000........................................................................59
   Appendix D: Executive Summary, Review of Structural Design of National Security Cutter,
               Sielski, Robert A., January 8, 2004 ..........................................................................61
   Appendix E: Review of Northrop Grumman Ship Systems Structural Design for the
               Deepwater National Security Cutter, Revised, Scott, Robert J., P.E.,
               January 13, 2004 .......................................................................................................63
   Appendix F: Memorandum from Assistant Commandant, G-S, to Deepwater Program
               Executive Officer, National Security Cutter (NSC) Structural Design
               Deficiencies, March 29, 2004 ...................................................................................74




                                      Acquisition of the National Security Cutter, U.S. Coast Guard
Table of Contents/Abbreviations

 Appendix G: Deepwater Program Office Brief to Commandant, NSC Structure Update to C-G,
             May 8, 2006 ..............................................................................................................76
 Appendix H: Memorandum from CG-4 to G-D, NSC Structural Design, June 23, 2006 ..............85
 Appendix I: Memorandum from G-SDW to G-DPM, Status: WMSL Structural Design
             Deficiencies, January 4, 2005 ...................................................................................88
 Appendix J: Structural Concerns, Conclusions and Recommendations, Technical Report:
             Structural Assessment of the U.S. Coast Guard National Security Cutter (NSC),
             Naval Surface Warfare Center, Carderock Division, Survivability, Structures, and
             Materials Department, August 2006 .........................................................................92
 Appendix K: Memorandum from Deepwater Program Executive Officer and Assistant
             Commandant for Systems to the Commandant, G-D/G-S Roles and Responsibilities,
             June 28, 2001 ............................................................................................................97
 Appendix L: Memorandum of Agreement Between the United States Coast Guard and
             the American Bureau of Shipping on Coast Guard Cutter Certification Plan,
             June 9, 1999 ..............................................................................................................99
 Appendix M: Award Term Determination for Contract HSCG23-02-C-2DW001, Base
             Period, May 19, 2006..............................................................................................104
 Appendix N: Department of Homeland Security Management Directive 0810.1.: The Office
              of the Inspector General, June 10, 2004.................................................................113
 Appendix O: Memorandum from the Coast Guard Chief of Staff (Acting) to the Coast
             Guard Engineering Logistics Center, Inspector General Audit of the
             Acquisition of the National Security Cutter, October 21, 2005..............................119
 Appendix P: Letter from ICGS Director of Contracts to Deepwater Program Executive
             Officer, DHS Office of Inspector General Audit of Acquisition of NSC,
             February 17, 2006 ..................................................................................................120
 Appendix Q: Cutter Employment Standards, U.S. Coast Guard Commandant Instruction
             3100.5A (undated) ..................................................................................................123
 Appendix R: Major Contributors to this Report ...........................................................................132
 Appendix S: Report Distribution ..................................................................................................133




                                 Acquisition of the National Security Cutter, U.S. Coast Guard
Table of Contents/Abbreviations

Abbreviations
ABS             American Bureau of Shipping
CG-82           Coast Guard Office of Budget and Programs
CLIN            Contract Line Item Number
DHS             Department of Homeland Security
DTO             Delivery Task Order
FY              Fiscal Year
GAO             Government Accountability Office
G-CCS           Coast Guard Chief of Staff
G-D             Coast Guard Deepwater Program Executive Office
G-S             Coast Guard Systems Directorate
ICGS            Integrated Coast Guard Systems
IPDE            Integrated Product Data Environment
IPT             Integrated Product Team
LM              Lockheed Martin Corporation
MOA             Memorandum of Agreement
NAVSEA          Naval Sea Systems Command
NGSS            Northrop Grumman Ship Systems
NSC             National Security Cutter
OIG             Office of Inspector General
PEO             Program Executive Officer
PMP             Program Management Plan
REA             Request for Equitable Adjustment
RFP             Request for Proposal
SAM             Systems Acquisition Manual
TWH             Technical Warrant Holder
U.S.            United States
USCG            United States Coast Guard
USCGC           United States Coast Guard Cutter
WMSL            Maritime Security Cutter, Large




                Acquisition of the National Security Cutter, U.S. Coast Guard
                                                                                   Audit
OIG
Department of Homeland Security
                                                                                   Report
Office of Inspector General

Executive Summary
                This report presents the results of our review of the U.S. Coast Guard’s
                acquisition of the National Security Cutter (NSC). The objective of our audit
                was to determine the extent to which the NSC will meet the cost, schedule, and
                performance requirements contained in the Deepwater contract.

                The NSC, as designed and constructed, will not meet performance
                specifications described in the original Deepwater contract. Specifically, due to
                design deficiencies, the NSC’s structure provides insufficient fatigue strength
                to be deployed underway for 230 days per year over its 30-year operational
                service life under Caribbean (General Atlantic) and Gulf of Alaska (North
                Pacific) sea conditions. Coast Guard technical experts believe the NSC’s
                design deficiencies will also increase the cutter’s maintenance costs and reduce
                its service life. To mitigate the effects of these deficiencies, the Coast Guard
                intends to modify the NSC’s design to support an operational profile of 170 to
                180 days underway per year in the North Pacific region, lower than the 230-
                day performance standard required by the Deepwater contract.

                The NSC’s design and performance deficiencies are fundamentally the result
                of the Coast Guard’s failure to exercise technical oversight over the design and
                construction of its Deepwater assets. The Coast Guard’s technical experts first
                identified and presented their concerns about the NSC’s structural design to
                senior Deepwater Program management in December 2002, but this did not
                dissuade the Coast Guard from authorizing production of the NSC in June
                2004 or from awarding ICGS a contract extension in May 2006.

                Since the Deepwater contract was signed in June 2002, the combined cost of
                NSCs 1 and 2 has increased from $517 million to approximately $775 million,
                resulting primarily from design changes necessary to meet post 9/11 mission
                requirements and other government costs not included in the original contract
                price. The $775 million estimate does not include costs to correct or mitigate
                the NSC’s structural design deficiencies, additional labor and materials costs
                resulting from the effects of Hurricane Katrina, and the final cost of a $302
                million Request for Equitable Adjustment (REA) that the Coast Guard is
                currently negotiating with ICGS.

                NSC 1 was christened on November 11, 2006, and final delivery to the Coast
                Guard is on schedule for August 2007. NSC 2 is currently under

                   Acquisition of the National Security Cutter, U.S. Coast Guard

                                              Page 1
                            construction and is scheduled for final delivery to the Coast Guard in October
                            2008, seven months ahead of schedule.

                            Finally, we encountered resistance from the Coast Guard and ICGS in our
                            effort to evaluate the structural design and performance issues associated with
                            the NSC. The impediments we experienced in obtaining access to personnel,
                            information, and documentation associated with the NSC acquisition are
                            unacceptable in light of the statutory mandates of our office; the severity of the
                            NSC design and performance deficiencies; the importance of the NSC to the
                            Coast Guard’s national security and Deepwater missions; and the expenditure
                            of billions of taxpayer dollars that are being invested in this critical acquisition.

                            We are making five recommendations to the Coast Guard, and one to the
                            Department’s Chief Procurement Officer and Office of General Counsel.
                            Our recommendations are intended to: (1) ensure the National Security
                            Cutter is capable of fulfilling all performance requirements outlined in the
                            Deepwater contract; (2) improve the level of Coast Guard technical oversight
                            and accountability; and (3) ensure Office of Inspector General access to all
                            records, personnel, and contractors of the department during all current and
                            future audits and inspections.

                            The Coast Guard’s written response to our draft report was received on
                            December 22, 2006. The response, however, did not indicate whether it
                            concurred or non-concurred with the recommendations, as requested in the
                            transmittal memorandum that accompanied the draft report. Consequently, it
                            is not clear the extent to which the Coast Guard intends to implement the
                            recommendations. We are asking the Coast Guard to advise our office
                            within 90 days of the date of this memorandum of its progress in
                            implementing the recommendations and the date by which each
                            recommendation will be fully implemented.


Background
                            The Integrated Deepwater System Program (Deepwater) is a $24 billion,
                            25-year acquisition program designed to replace and modernize the Coast
                            Guard’s aging and deteriorating fleet of ships and aircraft. As such,
                            Deepwater is the largest acquisition project in Coast Guard history. Of the
                            39 similar Navy and Coast Guard cutter fleets surveyed from around the
                            world, only two were reported to be older than the Coast Guard’s.1

                            The Deepwater acquisition employs a non-traditional “system-of-systems”
                            approach by which a private sector Systems Integrator is authorized to
                            develop an optimal mix of assets designed to accomplish all defined Coast

1
    News Briefing, U.S. Department of Transportation, Office of Public Affairs, dated June 25, 2002.

                               Acquisition of the National Security Cutter, U.S. Coast Guard

                                                          Page 2
                            Guard Deepwater missions.2 This concept is calculated to provide the Coast
                            Guard with requisite functional capabilities while minimizing life-cycle
                            costs. A traditional acquisition would, on a much smaller scale, replace a
                            single type of asset with a comparable replacement.

                            In 1999, the National Partnership for Reinventing Government designated
                            Deepwater as a National Reinvention Laboratory project.3 Consistent with
                            that designation, in June 2000, the Coast Guard’s Vice Commandant granted
                            Deepwater a partial waiver from Major Systems Acquisitions Manual (SAM)
                            requirements. (See Appendix C) However, the Vice Commandant’s waiver
                            also mandated that the Deepwater Program meet or exceed the fundamental
                            requirements of SAM’s “disciplined management approach,” including
                            regular briefings to senior Coast Guard leadership and the preparation of
                            robust project documentation.

                            The Coast Guard awarded the Deepwater contract to Integrated Coast Guard
                            Systems (ICGS)4 of Rosslyn, Virginia, on June 25, 2002. ICGS received an
                            initial 5-year contract to serve as the Deepwater Systems Integrator. The
                            current base contract term expires in June 2007, and the Coast Guard may
                            authorize up to five additional 5-year (60-month) award terms. On May 19,
                            2006, the Coast Guard announced its decision to extend the Deepwater
                            contract for 43 out of a possible 60 months, based on its evaluation of
                            ICGS’s performance during the first 42 months of the contract.

                            According to the terms of the contract, it is ICGS, and not the Coast Guard,
                            which has full technical authority over all Deepwater asset design and
                            construction decisions. In a June 2001 Memorandum, the Commandant
                            expressly limited the Coast Guard’s technical role to “providing expertise
                            and credible advice in core integrated engineering and logistics
                            competencies” and assigned this role to subject matter experts from the Coast
                            Guard’s Systems Directorate.5 The primary mechanism by which the Coast
                            Guard provides expertise and credible advice to ICGS concerning the design
                            of Deepwater assets is the Integrated Product Team (IPT).

                            The Deepwater Program implements a hierarchical network of IPTs to
                            perform key management, oversight, and contract performance functions,

2
    The Deepwater area of operations is typically defined as beyond the normal operating range, approximately 50 miles
    from shore.
3
    Reinvention Laboratories are innovative organizations or activities that are established to test or prototype new
    initiatives. They are empowered to experiment with new ways of doing business, share their ideas, successes, and
    lessons learned across government.
4
    Integrated Coast Guard Systems is a joint venture partnership between Northrop Grumman Ship Systems (NGSS) and
    Lockheed Martin Corporation (LM).
5
    The Coast Guard formally articulated the Systems Directorate’s Deepwater role as the “sustainment and systems
    logistics agent” responsible for “establishing and providing policies, standards, guidelines and best practices for
    overall engineering, maintenance, supply, transportation, and other elements of integrated logistics to be used in the
    development of CG assets and platforms.”

                                Acquisition of the National Security Cutter, U.S. Coast Guard

                                                           Page 3
                           and IPTs’ responsibilities include making decisions on meeting cost,
                           schedule, and performance objectives. This authority is ideally delegated to
                           the lowest IPT level practicable. For example, at the asset level, the NSC
                           IPT is chaired by ICGS representatives but includes “a significant Coast
                           Guard component.” 6 And, although consensus is the preferred decision
                           method, IPT leads are authorized to make unilateral decisions.

                           The National Security Cutter (NSC) will be the first major surface asset
                           delivered to the Coast Guard as part of the Deepwater Program. (See Figure
                           1). The Deepwater Implementation Plan specifies that a total of eight NSCs
                           will be built. The initial NSC, i.e., NSC 1, is being constructed under a Cost-
                           Plus-Incentive-Fee agreement while NSCs 2 through 8 are being produced
                           under Firm-Fixed-Price provisions.




                                       Source: U.S. Coast Guard
                                       Figure 1 – USCGC Bertholf (NSC 1) in drydock prior to launch.


                           The NSC is the cornerstone surface asset in the Deepwater fleet and, as such,
                           consumes a significant portion of the annual Deepwater budget. Chart 1
                           shows a comparison of NSC construction costs as a percentage of the total
                           Deepwater budget for Fiscal Years (FY) 2002 through 2007.




6
    Membership of Deepwater Joint IPTs is comprised of both contractor and Coast Guard personnel. The NSC IPT is a
    Joint IPT.

                              Acquisition of the National Security Cutter, U.S. Coast Guard

                                                          Page 4
                                                     Chart 1 – NSC Budget as a Percentage of Annual Deepwater Budget
                                                                           FY 2002 - FY 2007

                                                     $1,000




                                  $ in Millions
                                                        $500


                                                         $0                                                            Deepwater
                                                               FY 2002 FY 2003 FY 2004 FY 2005 FY 2006 FY 2007         NSC
                                                  Deepwater     $320    $478     $668   $724    $933    $934
                                                  NSC            $8     $137     $208   $265    $368    $418
                                                  % of Total     2%     29%      31%    37%     39%     45%




                               Sources: Coast Guard Appropriations Legislation, FYs 2002-2006 Conference Reports, 107-308, 108-10, 108-
                               280, 108-774, and 109-241; Lead Ship Cost Summary, U.S. Coast Guard, July 21, 2005; U.S. Coast Guard 2007
                               Budget in Brief.


                             As a result of the events of September 11, 2001, the Coast Guard was
                             transferred to the Department of Homeland Security (DHS) and its national
                             security mission was expanded. Accordingly, the Deepwater Implementation
                             Plan was revised by modifying the original designs of selected assets,
                             including the NSC, and accelerating the delivery of others.


Results of Audit
                             The NSC, as designed and constructed, will not meet the performance
                             specifications described in the Deepwater contract. Specifically, the NSC’s
                             structural design will result in fatigue strengths insufficient to meet the
                             cutter’s required capability of being underway7 for 230 days per year, or
                             6,900 deployment days over the cutter’s stated 30-year service life, in the
                             Caribbean (General Atlantic) and Gulf of Alaska (North Pacific) regions.
                             Coast Guard technical experts believe these design deficiencies, if left
                             uncorrected, could result in fatigue cracks that will significantly increase the
                             cutter’s maintenance costs and reduce its service life, thereby undermining
                             the Coast Guard’s ability to perform its Deepwater mission.

                             The Coast Guard acknowledges that the design of the NSC is insufficient to
                             achieve a 30-year service life based on 230 days underway in General
                             Atlantic and North Pacific sea conditions.8 To mitigate the NSC’s
                             performance deficiencies, the Coast Guard intends to task ICGS with
7
    According to 46 CFR § 15.301(a), underway means that a vessel is not at anchor, or made fast to the shore, or
    aground. It does not include the time spent tied up alongside a pier, in drydock, or on standby in port while at anchor.
8
    The Deepwater Program Office reported to the USCG Commandant in a May 8, 2006, briefing that the NSC design is
    not compliant with performance requirements and that certain structural elements were inadequate to support a 30-
    year ship service life based on an operational profile of 6,900 lifetime underway days.

                                Acquisition of the National Security Cutter, U.S. Coast Guard

                                                                        Page 5
implementing a series of modifications to the cutter’s structural design.
However, this plan assumes an NSC operating profile of between 170 and
180 days per year in the Pacific Ocean north of the Equator, significantly less
than the 230 days underway per year required by the Deepwater contract.

The Coast Guard’s technical experts began notifying Deepwater Program
management about their concerns regarding the NSC’s structural design in
December 2002, and continued relaying their concerns in a series of emails,
inter-office memoranda, letters, and briefings through January 4, 2005.
According to one memorandum from the Coast Guard’s Assistant
Commandant for Systems to the Deepwater Program Executive Officer
(PEO), the findings of two independent third party reviews (See Appendices
D and E) not only corroborated the findings of his technical experts, but also
confirmed that, “…significant flaws exist in the structural design of the
NSC.” (See Appendix F) These analyses were the basis for the Assistant
Commandant’s recommendation that the Coast Guard not authorize NSC
production until its structural design deficiencies were resolved. Despite
these warnings, the Coast Guard authorized construction of NSCs 1 and 2,
and authorized the purchase of advance production materials for NSC 3.
U.S. Navy technical experts have since conducted a third independent
structural assessment of the NSC that not only validated the Coast Guard
technical experts’ concerns, but also identified other deficiencies in the
cutter’s design.

According to senior Deepwater Program management, the decision to
authorize construction of NSC 1 was based on a balanced consideration of
cost, schedule, and performance factors. However, while program
management acknowledged that its decision involved evaluating a number of
trade-offs, including that any delays in the production schedule would
increase the total cost of the NSC acquisition, it did not support, with a
business case or other formal cost/benefit analysis, the impacts of delaying
production pending further assessment of the structural design. We
requested that Deepwater Program management provide us with copies of all
emails, decision memoranda, digests, inter-office correspondence, briefings
to senior Coast Guard leadership, and any other studies or analyses detailing
its rationale for moving forward with NSC production. In response, the
Coast Guard was unable to provide the “robust documentation” required by
the Vice Commandant in his memorandum granting Deepwater a partial
waiver from meeting SAM requirements.




  Acquisition of the National Security Cutter, U.S. Coast Guard

                             Page 6
Cost Increases and Schedule Changes
           NSC Cost Increases. As of November 15, 2006, the combined cost of NSCs
           1 and 2 has increased from $517 million to approximately $775 million, as
           shown in Table 1. This represents a 50% increase in cost over the original
           contract prices, resulting primarily from NSC design changes necessary to
           meet post 9/11 mission requirements, and other government-requested items
           not included in the original contract price.


                              Table 1 – NSC Cost Change Summary for NSCs 1 and 2
                                                  ($ in millions)


                       NSC Design Cost Changes                    NSC 1        NSC 2    Total
             June 25, 2002 Contract Estimate                      $322.2       $194.6   $516.8

             Post 9/11 Changes and Government Items               $140.2       $58.6    $198.8

             Inflation from 2002 to 2006                          $35.5        $23.7    $59.2

             Total November 2006 Cost Estimate                    $497.9       $276.9   $774.8

           Source: U.S. Coast Guard


           It further appears that the cost of NSCs 1 and 2 will increase well beyond the
           current $775 million estimate, as this figure does not include a $302 million
           Request for Equitable Adjustment (REA) submitted to the Coast Guard by
           ICGS on November 21, 2005. The REA represents ICGS’s re-pricing of all
           work associated with the production and deployment of NSCs 1 and 2 caused
           by adjustments to the cutters’ respective implementation schedules as of
           January 31, 2005. The Coast Guard and ICGS are engaged in negotiations
           over the final cost of the current REA, although ICGS has also indicated its
           intention to submit additional REAs for adjusted work schedules impacting
           future NSCs, including the additional cost of delays caused by Hurricane
           Katrina. The current $775 million estimate also does not include the cost of
           structural modifications to be made to the NSC as a result of its known
           design deficiencies. Future REAs and the cost of modifications to correct or
           mitigate the cutter’s existing design deficiencies could add hundreds of
           millions of dollars to the total NSC acquisition cost, and could potentially
           result in the Coast Guard acquiring fewer NSCs or other air and surface
           assets under the Deepwater contract.

           NSC Delivery Schedule. The Deepwater contract originally called for
           production and deployment work for NSC 1 to be completed on August 3,
           2007, with final delivery to the Coast Guard scheduled for August 27, 2007.
           ICGS still plans to deliver NSC 1 to the Coast Guard in August 2007.

               Acquisition of the National Security Cutter, U.S. Coast Guard

                                          Page 7
                           Construction of NSC 2 is also currently underway, with the cutter scheduled
                           for delivery to the Coast Guard on October 13, 2008, seven months ahead of
                           the May 15, 2009, contract date.


         NSC Design Deficiencies
                           The Coast Guard opted to begin production of NSCs 1 and 2 after being
                           advised by its technical experts that the cutter’s design contained potential
                           structural deficiencies that could prevent it from meeting contractual
                           performance requirements. Specifically, stress levels on several existing
                           NSC design elements result in fatigue strengths insufficient to endure 30
                           years of operation in the General Atlantic region, a condition that worsens
                           when operating in the more severe North Pacific region.9 Technical experts
                           from the U.S. Navy’s Naval Warfare Center, Carderock Division,10
                           conducted a fatigue analysis of the NSC design under both General Atlantic
                           and North Pacific conditions and concluded that, “fatigue cracks will initiate
                           well before the ship reaches its 30-year service life.” 11 They also concluded
                           that a fatigue life of only a few years could be expected if the NSC were
                           operated solely under North Pacific conditions.

                           The Coast Guard agrees with the nature and scope of the structural design
                           deficiencies identified in the Carderock study. In a May 8, 2006, briefing to
                           the Commandant, Deepwater Program management reported that: (1) the
                           NSC design is not compliant with performance requirements; (2) the fatigue
                           service lives of several critical NSC design elements are predicted to be less
                           than 3 years; and (3) fatigue analyses conducted by the Navy confirm the
                           Coast Guard technical experts’ concerns regarding the NSC design. The
                           briefing also noted that ICGS and its contractors have yet to express an
                           interest in assuming responsibility for resolving the NSC’s design problems
                           or for addressing underlying systems engineering issues. (See Appendix G)

                           The Coast Guard intends to task ICGS to work with its Systems Directorate
                           and Deepwater Program management on developing and implementing
                           Engineering Change Proposals that will enable the NSC to operate, on
                           average, between 170 and 180 days per year in the Pacific Ocean north of the
                           Equator. (See Appendix H) However, this is a far lower operating standard
                           than the 230 days underway per year required by the NSC’s contractual

9
  These design deficiencies include: (1) vent penetration openings in the strength deck stringer plates; (2) large door
   openings in longitudinal bulkheads near their supports; (3) weakness in the shell fashion plate; and (4) an abrupt
   discontinuity in deckhouse superstructure.
10
   The Naval Surface Warfare Center, Carderock Division, is the principal Navy resource, national focal point, and
   international leader in surface and undersea vehicle science, ship systems, and related maritime technology. The
   division is responsible for research, development, test and evaluation, fleet support, in-service engineering for surface
   and undersea vehicles, associated hull, machinery and electrical systems, and propulsors.
11
   Technical Report: Structural Assessment of the U.S. Coast Guard National Security Cutter (NSC), Naval Surface
   Warfare Center, Carderock Division, August 2006.

                               Acquisition of the National Security Cutter, U.S. Coast Guard

                                                          Page 8
                            Performance Specifications. Assuming a 30-year service life for each of the
                            eight planned cutters, if the Coast Guard’s plan to operate the NSC for 180
                            days per year in the North Pacific is implemented, the operational capability
                            of the entire NSC fleet could be reduced by up to 12,000 underway days.
                            This is more than 52 underway years, representing a loss of approximately
                            1.7 cutters over the course of 30 years.

                            According to the Coast Guard, much of the repair work to NSCs 1 and 2
                            would be performed following delivery, while any structural modifications
                            made to NSCs 3 through 8 would be incorporated during the production
                            process. The Coast Guard has not determined the impact of these planned
                            modifications on the delivery schedules of NSCs 3 through 8 or on the final
                            cost of the NSC acquisition.

                            U.S. Coast Guard’s Systems Directorate. Since shortly after award of the
                            Deepwater contract, the Coast Guard’s own technical experts assigned to its
                            Systems Directorate have repeatedly advised Deepwater Program
                            management and ICGS of their concerns regarding the NSC’s structural
                            design. Until recently, no substantive action was undertaken to resolve these
                            concerns. As a result, opportunities to develop more timely and cost-
                            effective solutions were lost.

                            For example, in December 2002, the Coast Guard’s technical experts first
                            briefed senior Deepwater Program management and ICGS representatives of
                            concerns about the NSC’s structural design that they had been unable to
                            resolve through the IPT process. In September 2003, Systems Directorate
                            personnel informed the Coast Guard’s Office of Acquisition and Deepwater
                            Program management that there were “very significant problems” with the
                            NSC’s design. Specifically, they wrote:

                                 “Although the Deepwater philosophy is that ICGS bears the
                                 responsibility for meeting the performance thresholds, [we] see
                                 this risk as being fundamentally owned by the Coast Guard. At
                                 delivery we will own the NSC and whatever design problems
                                 come with it – it will not be possible to start over…These
                                 problems could lead to significant program delays and cost
                                 overruns…or even catastrophic hull girder collapse…

                                 “[We] have done all we can over the past fourteen months to
                                 work collaboratively with ICGS to resolve these problems,
                                 however our input has been ignored and ICGS has been unwilling
                                 to take the steps necessary to resolve these problems. I remain
                                 gravely concerned that the U.S. Coast Guard will take delivery of
                                 a ship with a fatally flawed structural design. I recommend that
                                 all design efforts be stopped until these issues are resolved.”12

12
     Email from the Chief, Naval Architecture Branch, Engineering Logistics Center, dated September 17, 2003.

                                Acquisition of the National Security Cutter, U.S. Coast Guard

                                                           Page 9
                        In January 2004, the Systems Directorate received the results of independent
                        technical reviews conducted by two renowned naval vessel subject matter
                        experts to assess the structural adequacy of the NSC design. Both studies
                        corroborated the Systems Directorate’s initial technical concerns.
                        Appendices D and E summarize the respective findings of those assessments.

                        On March 29, 2004, the Assistant Commandant for Systems issued a
                        memorandum to the Deepwater Program Office outlining his concerns
                        regarding the NSC’s structural design. (See Appendix F) He stated:

                             “I am concerned that significant problems persist with the
                             structural design of the NSC. Importantly, several of these
                             problems compromise the safety and viability of the hull, possibly
                             resulting in structural failure and unacceptable hull vibration.”

                        The Assistant Commandant also noted the failure of the Deepwater IPT
                        process to address the Systems Directorate’s NSC technical concerns:

                             “Over the past eighteen months, my subject matter experts have
                             attempted to work collaboratively within the IPT structure to
                             resolve these problems through review, comment and follow-on
                             discussion of the structural design using reference (b)13 and (c)14
                             as guidance. My concern is that ICGS has unilaterally closed the
                             structural comments and concerns and ended any collaborative
                             effort at the NSC IPT and Sub IPT level, without reaching
                             resolution…”

                        In closing, the Assistant Commandant for Systems stated his position that the
                        NSC acquisition should not proceed until its design problems were resolved:

                             “…I am seeking your immediate assistance to bring these critical
                             issues to an agreeable resolution. The fact that the resolution of
                             these engineering issues will most likely impact the NSC design,
                             its [sic] paramount that the impending Delivery Task order for
                             Production and Deployment of the NSC (0030BC), be held in
                             abeyance until we can achieve resolution.”

                        Deepwater Program management responded to the Assistant Commandant’s
                        recommendation by directing that ICGS and the Systems Directorate
                        continue working toward resolution of the NSC’s design issues within the
                        established IPT process.15 This solution was proposed notwithstanding the
                        Systems Directorate’s assertion that the IPT process had been ineffective in
                        dealing with these issues in the past.

13
   Memorandum outlining G-D/G-S Roles and Responsibilities, dated June 28, 2001.
14
   Deepwater Program Management Plan, dated December 1, 2003.
15
   Memorandum from the Deepwater PEO to the Assistant Commandant for Systems, dated April 1, 2004.

                            Acquisition of the National Security Cutter, U.S. Coast Guard

                                                      Page 10
                             Since the Assistant Commandant for Systems’ recommendation that NSC
                             production be delayed until the resolution of design concerns was achieved,
                             the Coast Guard has issued four work orders, i.e., Delivery Task Orders
                             (DTOs), authorizing the expenditure of more than $406 million for the
                             production and deployment of NSCs 1, 2, and 3. Table 2 shows the nature
                             and cost of the four DTOs issued by the Coast Guard since March 29, 2004.

                                                         Table 2 – Delivery Task Orders (DTOs)
                                                   Authorizing Expenditures for Long Lead Materials,16
                                                        Production, and Deployment of NSCs 1-3
                                                                                                  Date of
                                DTO Number                     Description of Work                               Cost
                                                                                                 Issuance
                                    0030BC              Production and Deployment of NSC 1       6/22/04     $140,193,618
                                    0030CA              Long Lead Materials for NSC 2            10/19/04      $56,002,498
                                    0030CC              Production and Deployment of NSC 2        1/3/05     $144,722,038
                                    0030CB              Long Lead Materials for NSC 3             5/5/06       $65,737,197

                                                                                                 TOTAL       $406,655,351

                             Source: U.S. Coast Guard


                             On January 4, 2005, one day after the production and deployment DTO for
                             NSC 2 was issued, the Systems Directorate sent a second memorandum to
                             the Deepwater Program Office. The purpose of the memorandum was to
                             advise senior Deepwater Program management: (1) that no resolution of NSC
                             design issues had been achieved through the Deepwater IPT process; (2) that
                             several previously identified NSC design deficiencies remained unresolved;
                             and (3) of the Systems Directorate’s recommendations for moving the
                             process forward. One of the recommendations called for the Coast Guard to
                             contract with Carderock to conduct a third independent technical assessment
                             of the NSC’s structural design. (See Appendix I)




16
     Long Lead Materials refers to the ordering and pre-fabrication of materials required during the asset production
     phase.

                                 Acquisition of the National Security Cutter, U.S. Coast Guard

                                                              Page 11
           U.S. Navy Design Concerns
                             In March 2005, two months after receipt of the System Directorate’s latest
                             recommendation, but more than 27 months after first being advised of the
                             design deficiencies, the Deepwater Program Office contracted with the U.S.
                             Navy17 to conduct a fatigue assessment of the NSC’s design, emphasizing the
                             Coast Guard technical experts’ specific areas of concern. Final results of the
                             Navy’s assessment that were published in August 2006 validated most of the
                             Systems Directorate’s concerns by determining that, “there are several areas
                             of concern that have insufficient fatigue strength to endure 30 years of
                             operation in the General Atlantic.” 18 (See Appendix J) This is a significant
                             performance shortcoming given the Deepwater contract’s requirement that
                             the NSC be capable of operating for 30 years (6,900 lifetime underway days)
                             in both Caribbean (General Atlantic) and the more severe Gulf of Alaska
                             (North Pacific) sea conditions.

                             The Navy’s analyses also raised additional questions about the structural
                             viability of the NSC’s hull. Specifically, the Navy determined that the NSC's
                             hull girder has insufficient fatigue strength to carry bending loads for 30
                             years when operating in either the General Atlantic or North Pacific regions.
                             As a result, the Navy noted that the Coast Guard might need to make
                             structural modifications to, or impose operational limitations on, the NSC in
                             order to ensure adequate fatigue life.


           Coast Guard Technical Authority Within the Deepwater Program
                             The Deepwater contract gives the Systems Integrator the authority to make
                             all asset design and configuration decisions necessary to meet system
                             performance requirements. This condition allowed ICGS to deviate
                             significantly from a set of cutter design standards originally developed to
                             support the Coast Guard’s unique mission requirements, and ICGS was
                             further permitted to self-certify compliance with those design standards. As
                             a result, the Coast Guard gave ICGS wide latitude to develop and validate the
                             design of its Deepwater cutters, including the NSC.

                             Conversely, the Coast Guard chose to limit the technical oversight role of the
                             Systems Directorate on Deepwater to providing “expertise and credible
                             advice in core integrated engineering and logistics competencies.” (See
                             Appendix K) However, the Deepwater contract does not require that ICGS
                             or its subcontractors accept or act upon the advice of the Coast Guard’s
                             designated technical experts. As a result of this relationship, the Coast Guard
                             is limited in its ability to exercise technical oversight over its assets acquired

17
     Naval Surface Warfare Center, Carderock Division.
18
     The Navy had previously provided the Coast Guard with a summary of its findings during a preliminary briefing to
     Deepwater Program officials that occurred on December 2, 2005.

                                Acquisition of the National Security Cutter, U.S. Coast Guard

                                                          Page 12
                              under the Deepwater contract. This, in our opinion, is the primary factor
                              contributing to the inclusion of the structural deficiencies that currently
                              compromise the NSC’s operational viability.

                              In contrast to the Coast Guard’s approach, the U.S. Navy retains technical
                              authority and accountability over the design and construction of its ships
                              through the institution of Technical Warrant Holder (TWH) authority.
                              Specifically, Naval Sea Systems Command (NAVSEA) Instructions state:

                                   “Technical Warrant Holders are subject matter experts. Within
                                   the defined technical areas being warranted they are responsible
                                   for establishing technical standards, entrusted and empowered to
                                   make authoritative decisions, and held accountable for the
                                   technical decisions made.”

                              TWHs ensure that the technical aspects of Navy asset designs are given
                              independent consideration by providing technical authority that is separate
                              from program authority for cost, schedule, and performance. Navy surface
                              asset Program Managers yield to TWH decisions on technical issues and
                              must secure TWH approval for design changes. Efforts of the Coast Guard’s
                              technical experts to resolve their long-standing concerns with the NSC design
                              were thwarted because they lack a similar degree of authority on Deepwater.

                              Coast Guard Permitted Deviation From Established Design Standards. In
                              1999, the Coast Guard and the American Bureau of Shipping (ABS)19 signed
                              a Memorandum of Agreement (MOA) to jointly develop standards that
                              would govern the design, construction, and certification of all cutters
                              acquired under the Deepwater Program. (See Appendix L) These standards
                              were intended to ensure that competing industry teams developed Deepwater
                              proposals that met the Coast Guard’s unique performance requirements.

                              Prior to the June 25, 2002, contract award, the Deepwater Program Office
                              provided these design standards to the competing industry teams. Based on
                              their feedback, the Coast Guard converted 998 (85%) of the 1,175 cutter
                              design standards to “guidance” and permitted the industry teams to select
                              their own alternative standards without the need for Coast Guard approval.
                              However, the Coast Guard did not incorporate a contractual mechanism to
                              ensure that those alternative standards met or exceeded the original
                              “guidance” standards that it developed with ABS. This allowed the
                              competing teams to select potentially ill-defined or inappropriate cutter
                              design criteria that could be inconsistent with the MOA’s original intent.

19
     ABS is a member of the International Association of Classification Societies. Classification societies are
     organizations that establish and apply technical standards in relation to design, construction, and survey of marine-
     related facilities, including ships and offshore structures. ABS is an independent, self-regulating body that develops
     classification rules contributing to the structural strength and integrity of essential parts of ships’ hulls and
     appendages.

                                  Acquisition of the National Security Cutter, U.S. Coast Guard

                                                            Page 13
                           Coast Guard Allowed the Contractor to Self-Certify Compliance With
                           Standards. The Coast Guard and ABS also initially specified a certifying
                           agent for each standard to ensure that all cutters would be objectively
                           evaluated for compliance. However, the Coast Guard ultimately allowed the
                           competing industry teams to determine the certifying entity for any non-ABS
                           standards it selected and, to the extent that it was permitted, ICGS elected to
                           self-certify compliance with these standards.20 This decision to permit
                           contractor self-certification contrasts sharply with the intended role of an
                           independent certifying authority, as articulated in the Deepwater contract:

                                “The role of the certification agent is to serve as an independent
                                agent who verifies that the contractor has demonstrated
                                compliance with the applicable standards.”

                           U.S. Navy and classification community subject matter experts expressed
                           similar opinions, that, “self-certification is no certification.” By allowing
                           contractor self-certification, the Coast Guard eliminated yet another
                           oversight tool for ensuring that cutter designs developed under the Deepwater
                           Program would meet both contractual and Deepwater mission performance
                           requirements.

                           Deepwater IPTs Fail to Resolve NSC Structural Design Concerns.
                           Beginning shortly after contract award, Coast Guard technical experts raised
                           concerns about deficiencies in the NSC structural design, but were unable to
                           resolve them through the formal IPT process that was established to make all
                           Deepwater design and construction decisions. The Coast Guard technical
                           experts assigned to the NSC IPT and its component sub-IPTs reported that
                           their efforts to initiate collaborative discussions were repeatedly and
                           summarily closed-off by the ICGS-designated IPT chairpersons. This
                           assertion is reflected in both the March 2004 and January 2005 memoranda
                           from the Systems Directorate to the Deepwater Program Office. (See
                           Appendices F and I)
                           The Government Accountability Office (GAO) has also raised concerns
                           about the Deepwater IPT process. In June 2005, GAO testified before the
                           U.S. Senate that the Coast Guard had achieved “mixed success” in its efforts
                           to improve IPT effectiveness as the primary tool for overseeing the
                           contractor and managing the program.21 An earlier GAO report cited
                           comments in Deepwater monthly program assessment reports made by Coast
                           Guard officials who were involved in a number of different IPTs. While
                           these comments reflect individual opinions and not necessarily the views of
                           Deepwater Program management, they indicate that a degree of customer

20
    According to the Deepwater Surface Statement of Objectives: “The contractor shall ensure all standards of the
    performance specification and cutter specific certification matrix are certified either by self-certification or by an
   independent agent, except that the contractor shall use ABS to certify compliance with ABS standards.”
21
    Coast Guard: Preliminary Observations on the Condition of Legacy Deepwater Assets and Acquisition Management
    Challenges (GAO-05-651T), June 2005.

                               Acquisition of the National Security Cutter, U.S. Coast Guard

                                                         Page 14
                           dissatisfaction with the Deepwater IPT process existed. Table 3 contains a
                           sample of Coast Guard members’ observations made between June 2002 and
                           December 2003 regarding the performance of Deepwater IPTs.

                                                Table 3 – GAO Excerpts: Coast Guard Observations
                                                  Regarding the Performance of Deepwater IPTs
                               • “Because of aggressiveness of schedule, team development and collaboration have
                                 been negatively affected”
                               • “Team is making progress, but most other teams are not yet productive. Team
                                 leaders are challenged by intense pace of work needed to keep up with asset
                                 implementation plan.”
                               • “High demands and limited resources inhibit commitment to collaboration.”
                               • “Team progress is slowed by ineffective collaboration, resulting in missed
                                 milestones.”
                               • “Limited collaboration in addressing design and production issues.”
                               • “Demands on limited personnel resources have restricted collaboration in
                                 addressing some items in contract data requirements list in a timely fashion for the
                                 123-foot cutter.”
                               • “Team has been unable to resolve some comments in a timely fashion. Human
                                 resources within the team are taxed due to multitasking.”
                               • “There has been a lack of participation by some of the team members.”
                               • “Meeting minutes, decisions, and such have not been documented as outlined in the
                                 IPT charter. Important items and risk mitigation plans are not being consistently
                                 addressed, tracked, and resolved in a timely manner.”
                           Source: Contract Management: Coast Guard’s Deepwater Program Needs Increased Attention to Management
                                   and Contractor Oversight (GAO-04-380), March 2004.


                           In April 2006, the GAO reported that Coast Guard had taken steps to hold the
                           Systems Integrator more accountable for improving the effectiveness of the
                           IPTs. These actions included changing the award fee measures “to place
                           additional emphasis on the Systems Integrator's responsibility for making the
                           IPTs effective. Award fee criteria now incorporate the administration,
                           management commitment, collaboration, training, and empowerment of these
                           teams." However, the GAO also reported that a separate recommendation it
                           made to strengthen IPTs was not fully implemented by the Coast Guard due
                           to a lack of collaboration among the major subcontractors.22




22
     Changes to Deepwater Plan Appear Sound, and Program Management Has Improved, but Continued Monitoring Is
     Warranted, (GAO-06-546), April 2006.

                              Acquisition of the National Security Cutter, U.S. Coast Guard

                                                            Page 15
           Deepwater Award Term Decision Assessment
                            On May 19, 2006, the Coast Guard announced its decision to award ICGS an
                            extension of the Deepwater contract for 43 out of a possible 60 months for
                            the next award term beginning on June 26, 2007. (See Appendix M)
                            According to the Coast Guard, the Award Term decision was based on its
                            assessment that ICGS’s overall performance during the first 42 months of the
                            Deepwater base contract period warranted a “Good” rating.23 However, the
                            Coast Guard’s assessment only included those Deepwater assets and
                            capabilities that ICGS actually delivered during the base contract evaluation
                            period, not those under development, such as the NSC.

                            This is a significant shortcoming given the costs of the NSC and the larger
                            operational role it plays in supporting the Deepwater mission. For example, as
                            a key component of ICGS’ Deepwater “system of systems”, the NSC
                            acquisition accounts for approximately $2.9 billion, or nearly 12% of the
                            Deepwater budget.24 Because this figure does not include the costs to mitigate
                            the NSC’s structural design deficiencies, any costs resulting from the effects of
                            Hurricane Katrina, or the final cost of any current or future REAs submitted by
                            ICGS, the NSC acquisition, as a percentage of the overall Deepwater budget,
                            could further increase.

                            The NSC is also intended to be the Coast Guard’s most technologically
                            advanced class of cutter and will typically deploy with multi-mission cutter
                            helicopters and vertical unmanned aerial vehicles. The NSC structural
                            design and performance deficiencies that were identified and validated
                            during the 42-month evaluation period raise serious questions about ICGS’
                            ability to deliver cutters fully capable of supporting the Coast Guard’s
                            Deepwater mission and, therefore, these realities should have been
                            considered in the Deepwater award-term decision-making process.


           Documentation Supporting Key Deepwater Decisions
                            The Coast Guard did not consistently document key Deepwater decisions
                            impacting the design and construction of the NSC, as required by the
                            Deepwater Program Management Plan (PMP) and mandated in the SAM
                            waiver. As a result, we could not determine the thoroughness of the analyses
                            underlying the Deepwater PEO’s decision to proceed with NSC production
                            against the written advice of the Assistant Commandant for Systems. We
                            also could not determine the role of senior Coast Guard’s leadership in any
                            debate preceding this decision, or the extent to which it was aware of the
                            long-standing concerns of its technical experts regarding the NSC’s design.


23
     The performance evaluation period was from June 25, 2002, through December 31, 2005.
24
     Per the Revised Deepwater Implementation Plan, dated August 29, 2005.

                               Acquisition of the National Security Cutter, U.S. Coast Guard

                                                         Page 16
Documentation of IPT Meetings. The Deepwater PMP requires that all
major Deepwater decisions made within IPTs are to be documented to
indicate the context, methodology, and purpose, as well as the information
and rationale applied, to make the decision. According to the PMP, non-
consensus decisions should be identified and dissenters provided the
opportunity to include their opinions in the decision documentation. We
requested a copy of the minutes for all NSC IPT meetings, including those
where the NSC design and performance issues were discussed or resolved.
The minutes of NSC IPT meetings that occurred between August 2002 and
September 2005 were often incomplete and did not properly support NSC
program and resource allocation decisions. As a result, the extent to which
the NSC design and performance issues were debated within the NSC IPT
could not be verified.

Rationale Behind NSC Production Decision. The Deepwater Program was
granted a partial waiver from adhering to SAM requirements. However,
Deepwater was not exempted from meeting “the fundamental requirements
of SAM,” including the need for program management to keep the
Commandant and Vice-Commandant fully briefed on the progress of the
project, and to ensure that final project documentation was either equal to or
better than that required by SAM.

On September 1, 2005, we first asked the Coast Guard to provide all
documentation associated with its decision to authorize production of the
lead NSC. The purpose of our request was to determine the rationale or
business case underlying the Coast Guard’s decision to move forward with
NSC production against the written advice of its Assistant Commandant for
Systems. The Coast Guard acknowledged that no formal cost/benefit
analyses had been conducted prior to authorizing production of NSC 1, but
explained that the primary reasons for proceeding were its uncertainty
regarding the validity of the concerns raised by its technical experts and the
impact that such a delay could have on project cost and schedule.

We also sought these records to determine the extent to which the
Commandant, Vice-Commandant, and Chief of-Staff were aware of or were
involved in decisions impacting the design, construction, and deployment of
the NSC. It was not until our August 8, 2006, exit conference that the Coast
Guard provided any substantive documentation in response to our initial
request. However, this documentation did not indicate that these most senior
members of the Coast Guard’s leadership were aware of, or understood the
full extent of, the NSC design and performance debate prior to a December 8,
2005, briefing by the Deepwater Program Office.

The absence of complete records to support key acquisition decisions limits
the ability of those with oversight responsibility – the Congress, the
department, senior Coast Guard leadership, and the OIG – to fully understand
the circumstances, conditions, and rationales underlying these decisions. In
  Acquisition of the National Security Cutter, U.S. Coast Guard

                            Page 17
                              addition, documentation supporting key decisions provides transparency of
                              information and can lead to self-correcting behavior. To this extent, the
                              Coast Guard must ensure that the basis for all key decisions associated with
                              the acquisition of assets acquired under the Deepwater Program are fully,
                              consistently, and accurately documented.


            Office of Inspector General Access to Personnel and Documentation
                              We encountered resistance from the Coast Guard and ICGS in our effort to
                              evaluate the structural design and performance issues associated with the
                              NSC. In the case of the Coast Guard, responses to document requests were
                              either delayed or incomplete, while both the Coast Guard and ICGS
                              attempted to impose conditions on our authority to conduct private interviews
                              with their personnel. While we were eventually able to conduct confidential
                              interviews with personnel assigned to the Coast Guard’s Systems Directorate,
                              efforts to obtain access to all Coast Guard and contract personnel remain
                              unresolved. Such behavior by an auditee is contrary to the Inspector General
                              Act of 1978,25 as amended, and inconsistent with the intent of DHS
                              Management Directive 0810.1. (See Appendix N) Resistance to legitimate
                              inquiries by our office cannot and will not be tolerated, as we need to ensure
                              the timeliness and completeness of our audits, inspections, and investigations
                              to fulfill our statutory mission and to avoid imposing limitations on the scope
                              of any future reviews.

                              Access to Coast Guard Personnel and Documentation. During the course of
                              this audit, the Coast Guard challenged our request for unfettered access to its
                              active duty and civilian employees assigned to the Systems Directorate.
                              Specifically, the Coast Guard requested: (1) that all interview requests be
                              submitted to its Office of Budget and Programs (CG-82); (2) that we provide
                              a description of the nature and subject of topics to be discussed in advance;
                              (3) that CG-82 staff be permitted to attend these interviews; and (4) that
                              Coast Guard personnel report all contacts with our office to their respective
                              supervisors.

                              Additionally, Coast Guard interviewees were not permitted to provide
                              documents directly to our office unless they were first submitted to CG-82

25
     The Inspector General Act of 1978, Pub. L. 95-452, 92 Stat. 1101, as amended, codified in 5 U.S.C.A. App. 3,
     provides that each Inspector General is authorized, “to have access to all records, reports, audits, reviews, documents,
     papers, recommendations, or other material available to the applicable establishment which relate to programs and
     operations with respect to which that Inspector General has responsibilities under this Act…,” 5 U.S.C.A. App. 3
     § 6(a)(1), and to “request such information or assistance as may be necessary for carrying out the [Inspector
     General’s] duties and responsibilities.” Id. § (a)(3). The statute further provides that, “Upon request of an Inspector
     General for information or assistance under subsection (a)(3), the head of any Federal agency involved shall, insofar
     as is practicable and not in contravention of any existing statutory restriction or regulation . . . furnish to such
     Inspector General . . . such information or assistance.” Id. § 6(b)(1).


                                  Acquisition of the National Security Cutter, U.S. Coast Guard

                                                            Page 18
for review and approval. Systems Directorate personnel sought advice from
Coast Guard legal counsel because they were concerned about their ability to
provide us with information and documentation in confidence. Coast Guard
counsel subsequently briefed Systems Directorate personnel on
whistleblower protections and in doing so, expressed an opinion that the
ground rules imposed by CG-82 were in violation of the employees’ rights to
meet with us and respond to our requests in confidence.

Because the Coast Guard’s demands were hindering our audit efforts, on
September 28, 2005, we suspended all fieldwork on the NSC audit until these
issues could be resolved. We contended and continue to contend, that the
Coast Guard’s attempts to impose conditions on our authority violated both
the Inspector General Act of 1978 and DHS Management Directive 0810.1
by unreasonably restricting our access to any information, documentation,
and personnel we deemed necessary to perform our oversight role within the
department.

On October 21, 2005, the Coast Guard’s Chief of Staff (G-CCS) issued a
memorandum temporarily suspending CG-82’s role in reviewing and
organizing audit-related documentation requested by our office. The
memorandum also suspended the requirement that CG-82 personnel be
present at our interviews. However, this guidance only applied to the
participation of a specific division within the Systems Directorate in the
current NSC audit. It also did not apply to any other Coast Guard personnel
or to future OIG audits, nor did it provide any guidance on whistleblower
protection. (See Appendix O)

We also experienced difficulties obtaining timely, complete, and accurate
documentation directly from CG-82. For example, we requested a copy of a
December 2005 briefing that Carderock presented to the Coast Guard
detailing the preliminary results of its NSC structural analyses. At first, the
Coast Guard responded by providing us with an internal briefing document
that contained only selected portions of the Carderock analysis. Specifically,
this internal document omitted several pages of technical information
prepared by Carderock that described the individual NSC structural
deficiencies, as well as all of Carderock’s corresponding notations, in large
red lettering, stating that the design of these elements was insufficient to
support a 30-year service life. More than two weeks later, the Coast Guard
provided us with a copy of the original Carderock briefing that we initially
requested.

At another time, we obtained a May 2002 letter from the Coast Guard to
ICGS describing, “a disappointingly large number of deficiencies and
weaknesses for all factors evaluated” in its Phase 2 contract proposal, and
referencing four enclosures to the letter in support of this statement. In
response to our request for the four enclosures referenced in the original
letter, the Coast Guard notified us that it were unable to locate them. On
  Acquisition of the National Security Cutter, U.S. Coast Guard

                            Page 19
another occasion, we requested copies of enclosures to a July 2002 letter
from the Coast Guard to ICGS concerning preliminary NSC contract design
issues that we obtained independently through the Integrated Product Data
Environment (IPDE), the Deepwater Program’s data management
environment. The Coast Guard responded that it was unable to locate either
the original letter we requested or the referenced enclosures within its own
database: “We have searched the IPDE and paper files to find further letters
and have not found any. Unfortunately, we have also not located a copy of
what you referenced.”

We are concerned with Coast Guard’s inability or unwillingness to provide
us with documentation necessary to support a thorough evaluation of the
NSC acquisition or other Coast Guard programs or projects. Our concern is
heightened by the fact that these document requests involved records that the
Coast Guard should have kept on file. To date, issues regarding Coast
Guard’s cooperation and our access to information, documentation, and
personnel for future reviews, remain unresolved.

Access to Contractor Personnel. We also experienced difficulty in obtaining
access to ICGS personnel knowledgeable of the structural design and
performance issues associated with the NSC. Specifically, ICGS maintained
that we should comply with the audit access policies of its two Tier 1
subcontractors, Northrop Grumman Ship Systems and Lockheed Martin
Corporation, and also established conditions applicable to our requests for
documents or interviews. These ground rules purported to require that we
make all such requests in writing through the Deepwater Program Office and
the ICGS Liaison Team Lead, with a detailed description of the purpose of
the request and topics to be addressed. ICGS also informed the Deepwater
PEO that it was appropriate to have other ICGS or sub-contractor
representatives present, including legal counsel, during our interviews. (See
Appendix P) As a result, no formal interviews with ICGS or its contract
personnel were conducted, thereby preventing us from taking into
consideration their informed and relevant perspectives.

The impediments we experienced in obtaining access to personnel,
information, and documentation associated with the NSC acquisition are
unacceptable in light of the statutory mandates of our office; the severity of
the NSC design and performance deficiencies; the importance of the NSC to
the Coast Guard’s national security and Deepwater missions; and the
expenditure of billions of taxpayer dollars that are being invested in this
critical acquisition.




  Acquisition of the National Security Cutter, U.S. Coast Guard

                            Page 20
    Current Status of the NSC
               NSC 1, USCG Bertholf, was christened on November 11, 2006, with final
               delivery to the Coast Guard scheduled for August 2007. NSC 2 is under
               construction, with final delivery scheduled for October 2008. According to
               the Revised Deepwater Implementation Plan of August 2005, delivery of
               NSCs 3 through 8 is currently scheduled to occur between 2009 and 2017.




                      Source: U.S. Coast Guard
                      Figure 2 – NSC 1 under construction at NGSS shipyard in Pascagoula, MS.



Conclusions and Recommendations
               The NSC, as designed and constructed, will not meet the performance
               specifications described in the Deepwater contract. Specifically, the NSC’s
               structure, due to design deficiencies, has insufficient fatigue strength to be
               deployed underway for 230 days per year over its 30-year operational service
               life under Caribbean (General Atlantic) or Gulf of Alaska (North Pacific)
               conditions as required by contract. Additionally, the structural modifications
               under development by the Coast Guard are also insufficient to meet the
               cutter’s contractual operational capability requirement and will further
               increase the cost of the NSC acquisition.

               The NSC’s design and performance deficiencies are fundamentally the result
               of the Coast Guard's failure to exercise its technical and management
               oversight authority over the design and construction of the assets acquired
               under Deepwater. As a result, the Coast Guard lost an opportunity to resolve
               these issues in a timely and cost-effective manner.

               Proceeding with the NSC acquisition may be unavoidable in light of the
               funds invested to date and the importance of the NSC to the Deepwater
               mission. Consequently, it is critical that any structural modifications made to
               the NSC be adequate to ensure that each of the cutters in this class meet all of
               the performance requirements outlined in the Deepwater contract.


                 Acquisition of the National Security Cutter, U.S. Coast Guard

                                             Page 21
Recommendations
To improve management oversight and accountability, we recommend that the
Commandant, U.S. Coast Guard:

       1. Develop and implement a plan to ensure the National Security Cutter is
          capable of fulfilling the operational profiles as defined in the Deepwater
          contract. The plan should include a detailed description of the
          modifications to be made, including any requests for waivers/deviations
          from the Deepwater performance specifications. In addition, the plan
          should include timelines, milestones, and quarterly reporting
          requirements outlining the progress being made, the identity of the
          organizational entities to be responsible for implementation, and any
          short- and long-term funding requirements.

       2. Provide assurances that a solution to the cutter’s structural design issues
          are fully developed and the costs associated with the solution are
          identified before issuing new NSC Delivery Task Orders for National
          Security Cutters 3 through 8.

       3. Develop the policies and procedures necessary to empower the Assistant
          Commandant for Systems with greater, more formal technical authority
          to ensure that assets acquired under Deepwater meet all design and
          technical performance requirements.

       4. Amend future Award Term decision criteria to include the cost, schedule,
          design, and performance evaluations of all assets under development, in
          addition to any Deepwater assets, platforms, or systems delivered during
          the evaluation period.

       5. Ensure that the rationale underlying all key decisions associated with the
          design, construction, and implementation of all assets acquired under the
          Deepwater Program is formally documented and approved by senior
          management.

To improve contract management oversight and accountability, we recommend the
Chief Procurement Officer, Department of Homeland Security, in coordination with
the Department’s Office of General Counsel:

       6. Ensure that all future Department contracts, including those governing
          the Deepwater acquisition, contain terms and conditions that clearly
          stipulate the Department of Homeland Security, Office of Inspector
          General’s right of unfettered access to contract and subcontract
          documents and personnel, including private, confidential interviews,
          information, inter-office correspondence, and pre-decisional
          documentation.


         Acquisition of the National Security Cutter, U.S. Coast Guard

                                   Page 22
Management Comments and OIG Analysis
          U.S. Coast Guard Comment: The Coast Guard has serious concerns with
          the DHS OIG’s approach to reviewing and analyzing this major system
          acquisition. The report contains selective inclusion of documents that do not
          represent the most current, comprehensive, or technically accurate data.
          Consequently, the report’s utility for program status analysis or program
          improvement is inherently limited. This statement presents the Coast
          Guard’s position and addresses inaccuracies identified in this report.
          Specifically, the report:
          1. Incorrectly characterizes the operational profile requirement for the
             NSC;
          2. Misunderstands the decisions regarding the NSC service-life issue;
          3. Inaccurately characterizes cost data;
          4. Illustrates the DHS OIG’s lack of understanding of acquisition strategy
             utilizing Performance Based Contracts; and
          5. Mischaracterizes the level of Coast Guard cooperation during the
             conduct of this audit.

          OIG Response: The conclusions and recommendations included in the final
          NSC report are the result of the analysis of information that we obtained as of
          November 21, 2006. We stand by our assertion that the facts, findings, and
          recommendations contained in the report are accurate.

          The operational profile, service life, and cost data contained in the report was
          obtained as a result of extensive interviews of and briefings by active duty
          and civilian technical experts assigned to or contracted by the Coast Guard’s
          Systems, Acquisition, and Operations Directorates, the Deepwater Program
          office, and the Commandant’s Chief of Staff.

          Our conclusions regarding the operational profile, service life, cost data, and
          structural design issues associated with the NSC are the result of analyses
          performed by naval architects, marine engineers, structural engineers,
          statisticians, and shipbuilding professionals with decades of experience
          designing, constructing, and operating Coast Guard cutters and naval
          combatants. These conclusions are not ours; our report simply documents
          what the Coast Guard’s own technical experts, independent contractors, and
          the U.S. Navy have been trying to tell them in emails, memoranda, briefings,
          and inter-office correspondence dating back to December 2002.

          The Coast Guard had six different opportunities to review drafts of this report
          and provide additional evidence relevant to the NSC acquisition. All
          comments that were accompanied by sufficient and relevant data were
          incorporated into the final report as appropriate.


             Acquisition of the National Security Cutter, U.S. Coast Guard

                                       Page 23
Further, the IG met with the Deepwater Program Executive Officer, the
current Assistant Commandant for Systems, the Coast Guard Commandant,
and the Secretary on October 3, 2006, to discuss the circumstances and
conditions that led to the identification of structural deficiencies associated
with the NSC. At no time during these discussions did the Commandant or
his senior staff indicate to the Secretary or the IG that they had any
substantive problems with the facts as they were presented in the NSC report.
On the contrary, a substantial portion of the meeting was spent discussing the
Coast Guard plan to mitigate the effect the NSC structural deficiencies could
have on the cutter’s ability to perform the Deepwater mission.


U.S. Coast Guard Comment: The Coast Guard is also concerned about
the DHS OIG’s failure to seek the necessary expertise to aid in fully
evaluating the complex technical issues, such as the specialized topic of
fatigue life of a structural component of a cutter, in this report. Established
best practices, contained in Generally Accepted Government Auditing
Standards (GAGAS), state that audit organizations may need to employ or
hire specialists who are knowledgeable, skilled or experienced in certain
subject matter areas like engineering to aid and assist audit teams (GAO-03-
673G).

The DHS OIG did not follow these accepted best practices when conducting
this audit. Additionally, an independent engineering organization could have
served as the audit’s subject matter expert, saving valuable time for multiple
staffs to explain engineering theory and practice to the in-house audit staff.

OIG Response: The NSC audit was conducted according to Generally
Accepted Government Auditing Standards (GAGAS). The objective of our
review was to determine the extent to which the NSC will meet the cost,
schedule, and performance requirements contained in the Deepwater
contract. It was not our intention to assess the cutter’s technical design. The
conclusions discussed in this report relating to the operational profile and
fatigue/service life of the NSC, are the result of analyses conducted by the
Coast Guard’s own technical experts, shipbuilding industry professionals,
and U.S. Navy personnel with decades of experience designing,
constructing, and operating Coast Guard cutters or naval combatants. They
are not our conclusions. Our report documents what the Coast Guard’s own
technical experts, independent contractors, and the U.S. Navy have
communicated to the Deepwater Program Office, the Coast Guard’s Chief of
Staff, and the Commandant in emails, memoranda, briefings, and inter-
office correspondence dating back to December 2002.

Further, the Coast Guard and the U.S. Navy’s Surface Warfare Center
(Carderock Division) have verified the structural design flaws originally
documented in the Assistant Commandant for Systems’ March 29, 2004,
memorandum to the Deepwater Program Executive Officer (PEO). The
  Acquisition of the National Security Cutter, U.S. Coast Guard

                            Page 24
Coast Guard is currently developing a mitigation strategy based on the U.S.
Navy’s determination that the NSC’s structure, as currently designed,
provides insufficient fatigue strength to be deployed underway for 230 days
per year over its 30-year service life under either Caribbean (General
Atlantic) or Gulf of Alaska (North Pacific) sea conditions as required by the
Deepwater contract.


U.S. Coast Guard Comment No. 1: [The OIG] Incorrectly characterizes
the operational profile requirement for the NSC:

This report states that:
        “To mitigate the effects of these deficiencies, the Coast
        Guard intends to modify the NSC’s design to support an
        operational profile of 170 to 180 days underway per year
        in the North Pacific region, lower than the 230-day
        performance standard required by the Deepwater
        Contract.”

The DHS OIG is incorrect. The Coast Guard has not lowered performance
standards. Fatigue issues identified and addressed by the Coast Guard do
not and will not impact the NSC’s operational performance, nor will they
require operational restrictions of any kind. The NSC performance standard
is in accordance with Commandant’s Instruction (COMDTINST 3100.5A), by
which all cutters are managed. This instruction specifically dictates what is
meant by Underway Days versus Days Away From Home Port (DAFHP).
The DAFHP requirement for the NSC is 230 days. The 230 days consists of:
185 days underway (165 Mission Days and 20 Average Transit Days) and 45
in-port logistics DAFHP. Although the Performance Specification (P-Spec)
contains minor ambiguities, the Coast Guard and Integrated Coast Guard
Systems (ICGS), the Deepwater Program’s systems integrator, are working
in accordance with COMDTINST 3100.5A. It is understood by all parties
that the 230-day requirement is Days Away From Home Port (DAFHP), not
Underway Days.

OIG Response: We stand by our assertion that the Coast Guard has
adopted an NSC operational profile of 170 to 180 days underway per year.
The NSC’s performance standards, as stated in the Deepwater contract,
remain unchanged at 230 days underway per year, on average, in the
General Atlantic and North Pacific regions over the cutters' 30-year service
life. However, the Coast Guard has adopted an NSC operational profile of
170 to 180 days underway per year, on average, in the Pacific Ocean north
of the Equator, as the basis for the structural design modifications that are
needed to enable the NSC to meet the performance standards as stated in the
Deepwater contract. (See Appendix H) This decision could result in a
design solution that prevents the NSC from the meeting the 230 days

   Acquisition of the National Security Cutter, U.S. Coast Guard

                             Page 25
underway requirement, thereby compromising its ability to meet future
mission needs.

The Coast Guard’s decision to base its modifications to the NSC on an
operational profile of 170 to 180 days underway is a recent development.
Prior to June 2006, the Coast Guard expected the contractor to deliver a
cutter that met the 230 days underway requirement. For example, in March
2006, the NSC Program Manager and Deputy Surface Program Manager
both communicated to ICGS that 230 days underway is a contractual
requirement. In April 2006, the NSC Contracting Officer also
acknowledged the 230-day performance requirement when he advised ICGS
by letter that the analysis conducted by the Coast Guard has been based on
the Deepwater contract requirement that states, “The ship is expected to be
underway 230 days in a average year.” More recently, the NSC Program
Manager briefed the Commandant in May 2006 that areas of the NSC design
were “inadequate for a 30-year ship service life, based on performance
requirements for 6,900 lifetime underway days.” He also informed the
Commandant that the NSC design was inadequate based on ICGS's “20%
Reduced NSC Utility position of 5,550 lifetime underway days” (or
approximately 184 days underway per year). (See Appendix G) All of this
changed in June 2006 when the Coast Guard determined that designing the
NSC to operate for 230 days, each year would lead to “an overly
conservative design” and adopted a less capable operational profile on which
to base the NSC structural modifications. (See Appendix H)

According to the Coast Guard's response to this NSC report, it has chosen to
reinterpret the Deepwater contract rather than hold the contractor
accountable for the 230 days underway requirement of the contract.
Specifically, the Coast Guard has, in effect, substituted the term Days Away
From Homeport (DAFHP) in place of “underway” in the contract.
According to COMDTINST 3100.5A, DAFHP is defined as, “All days in
which the cutter is not in its homeport to grant normal liberty.” (See
Appendix Q) The homeport is defined as an area within a 90-minute
automobile driving time from a cutter's permanent berth (approximately 75
miles). As a result, the NSC could be moored in a port other than its
homeport indefinitely, but never spend one day underway at sea. This raises
concerns about how the Coast Guard intends to evaluate contractor
performance as it relates to the NSC, as well as the Fast Response Cutter
(FRC) and Offshore Patrol Cutter (OPC).

By adopting the DAFHP interpretation, the Coast Guard is also able to:

•    downplay the seriousness of the structural design deficiencies associated
     with the NSC and their impact on the operational capability of the NSC
     fleet;



    Acquisition of the National Security Cutter, U.S. Coast Guard

                              Page 26
•    minimize the number, size, scope, and cost of the “structural
     enhancements” needed to bring the NSC up to minimum Deepwater
     performance standards;
•    reduce the likelihood that operational restrictions will have to be imposed
     on NSCs 1 and 2 if they are deployed to the North Pacific as originally
     planned; and,
•    redefine downward the cutter performance specifications governing the
     Fast Response and Offshore Patrol Cutters acquisitions.

We are concerned that the Coast Guard has chosen to pursue a strategy
similar to one employed by ICGS in responding to the Coast Guard’s own
concerns about the NSC’s structural design. Specifically, in its May 2006
briefing to Commandant, the NSC Program Office described ICGS’ level of
participation in partnering with the Coast Guard to achieve NSC design
solutions as follows: “Energy focused on deflecting Government technical
analysis and reinterpreting contract requirements.” In the current case, the
Coast Guard’s approach to addressing the NSC’s structural deficiencies has
been to reinterpret established performance measurements rather than hold
the contractor accountable for meeting the terms of the performance-based
Deepwater contract.

Regardless of the operational profile for days underway that the Coast Guard
decides to use for NSC operations, it is still entitled to an NSC “designed to
support an operational scenario of up to 230 days underway per year” as
stipulated in the Deepwater contract.


U.S. Coast Guard Comment No. 2: [The OIG] Misunderstands the
decisions regarding the NSC Structures Issue
The Coast Guard opinion is that decisions regarding structures and
production have been well-considered and were prudent and correct. The
NSC structure does not pose an immediate concern; rather, it presents a risk
that it may need some structural repairs during its service life. Any known or
suspected fatigue concerns will be addressed when the design change now
being developed is incorporated on the NSC. In the end, the NSC will be
designed to achieve a 30-year fatigue life.

OIG Response: The Coast Guard’s opinion that decisions regarding [NSC]
structure issues and production were well considered and prudent, is not
supported by the facts. The Coast Guard failed to formally document the
cost, schedule, and performance rationale underlying its decision to proceed
with NSC 1 production against the written advice of its Assistant
Commandant for Systems. This is a serious shortcoming given the Assistant
Commandant for Systems’ statement in a memorandum that several of these
structural design problems compromised “…the safety and viability of the

    Acquisition of the National Security Cutter, U.S. Coast Guard

                              Page 27
                            [NSC] hull, resulting in structural failure and unacceptable hull vibration.”
                            (See Appendix F)

                            The former Assistant Commandant for Systems, who was also known as the
                            Coast Guard’s “Chief Engineer,” had served as assistant engineer,
                            engineering officer, and executive officer aboard the Coast Guard Icebreaker
                            Burton Island, high endurance cutter(s) Jarvis and Rush. He also holds 4
                            masters degrees, including a master’s degree in Naval Architecture and
                            Marine Engineering and industrial and operations Engineering from
                            Rensselaer Polytechnic Institute; a masters degree in Business
                            Administration, and a masters degree in National Security and Strategic
                            Studies from the Naval War College. In our view, the Assistant
                            Commandant for Systems was as knowledgeable as anyone in the Coast
                            Guard regarding the adequacy of the NSC’s structural design. For these
                            reasons, we believe the Commandant and the Deepwater PEO should have
                            been far more responsive to his concerns.

                            The Coast Guard response also contends that the NSC structure does not pose
                            an immediate concern but rather it presents a risk that it may need some
                            structural repair during its service life. However, the response neglects to
                            mention that the NSC, as currently designed, has several key structural
                            components with a calculated service life of less than 3 years that require
                            immediate remediation. This is especially true with regard to NSCs 1 and 2.
                            (See Appendix G) It is not clear whether NSCs 1 and 2 can be fixed given
                            their stage in construction. What is clear, however, is that any plan
                            developed by the Coast Guard to resolve these structural deficiencies can be
                            expected to have a substantial cost, schedule, and performance implications,
                            the extent to which will be dependent on the Coast Guard’s final
                            interpretation of the fatigue life standards for the NSC.


                            U.S. Coast Guard Comment: During the Coast Guard’s review of the
                            NSC’s design from 2002 to 2004, concerns were raised about certain aspects
                            of the ship’s structure that could prevent it from achieving its required 30-
                            year service life. Specifically, Coast Guard and independent technical
                            experts questioned whether some of the cutter’s structural components would
                            experience fatigue26 damage prior to the service-life objective, a critical
                            consideration given the extended, high-tempo operations expected of the
                            NSC.

                            The IDS Program Office has been working with Assistant Commandant for
                            Engineering and Logistics (designated as CG-4), the Coast Guard’s

26
  Structural fatigue is a result of cyclic loading. In the case of ship structures, fatigue stresses from these loads develop
in the hull girder as it hogs (arches) and sags while moving through waves. After time, these stresses can lead to cracks
in the ship’s structures. How and where the ship is operated can impact fatigue life; if a ship regularly operates in high
sea states, for example, especially at higher speeds, greater stress is imposed on the hull cumulatively.

                               Acquisition of the National Security Cutter, U.S. Coast Guard

                                                          Page 28
                           technical authority, to address structural concerns throughout the design
                           development and production process. The Program Executive Officer (PEO)
                           for the IDS (designated as G-D) did not ignore the concerns of CG-4, but
                           rather used his authority as the acquirer to require ICGS to perform due
                           diligence in developing the structural details, which resulted in numerous
                           improvements to the structural design. In fact, many structural issues
                           presented to IDS in the RADM Brown memo were incorporated into the NSC
                           design prior27 to the issuance of the Delivery Task Order (DTO) 0030BC,
                           which authorized and funded ICGS to begin production of the first-in class
                           NSC. Regarding those remaining areas of concern identified by CG-4, G-D
                           requested Naval Surface Warfare Center, Carderock Division (NSWC-CD)
                           to conduct an independent analysis of the structural adequacy of NSC
                           critical areas using a statement of work tailored by CG-4. The IDS
                           managers decided to address the remaining NSC structural issues in parallel
                           with the NSC design and construction as a lower-risk alternative when
                           compared to waiting for resolution of the structural issues and then starting
                           design and construction. Only after the preliminary results of the NSWC-CD
                           study became available in December 2005, during the first progress review,
                           did the IDS program have additional actionable information upon which
                           further corrective action could be considered.

                           After thorough review28, and to remove any lingering doubts, the Coast
                           Guard determined that it is in the government’s interest to increase the
                           fatigue tolerance of the NSC to ensure that the ship’s basic structures will
                           meet its projected 30-year service life. Engineering changes to address the
                           desired structural enhancements, developed in collaboration with the U.S.
                           Navy and other naval engineering experts, were approved by the Deepwater
                           Program’s technical authority, the Engineering and Logistics Directorate at
                           Coast Guard Headquarters. To improve the current design, a Request for
                           Proposal (RFP) for changes to be implemented on NSC #3 was issued to
                           ICGS.

27
   Structural enhancements such as the following were incorporated into the design of NSC #1 prior to the beginning of
ship construction: Material upgrades from 51 ksi to 80 ksi yield for deck stringer and side shell shear strakes, thickness
and material upgrades for deck strakes near openings, increased thickness of plates and structure under reduction gears
resulting from vibration and finite element analyses of the hull structure and propulsion foundations, utilization of
improved fatigue compensation for selected penetrations as specified by the USN for extended hull life, fatigue analysis
using USN Fatigue Guidance for explicit fatigue life design determination, independent analyses to confirm and
revalidate specific areas of concern raised by the USCG, increased superstructure scantlings for buckling strength and
stress concentrations and revised geometry, scantlings and details associated with side shell fashion plates as well as the
horizontal fashion plates in way of the re-entrant corners of the superstructure.
28
   Agencies that participated in the review of the NSC’s design (at the Coast Guard’s request) included subject matter
experts from the Coast Guard Program Executive Office Integrated Deepwater System (PEO IDS), the Engineering and
Logistics Directorate at Coast Guard Headquarters (CG-4, the Deepwater Program’s technical authority), and the Coast
Guard’s Engineering and Logistics Center. The Coast Guard also contracted with the U.S. Navy’s Naval Sea Systems
Command’s Naval Surface Warfare Center, Carderock Division for an independent review of the NSC design.
Integrated Coast Guard Systems (ICGS, a joint venture of Northrop Grumman and Lockheed Martin and the Deepwater
Program’s lead system’s integrator) similarly conducted a review, and a private engineering firm (Designers &
Planners) also made an assessment of the NSC design with regard to fatigue.

                               Acquisition of the National Security Cutter, U.S. Coast Guard

                                                         Page 29
A variety of methods are commonly used to enhance the strength of a ship’s
structure (e.g., treatment of welded joints, material upgrades, increased
thickness of plates and structures, revised geometry for components).
Specific details of the structural configuration changes needed to implement
the design enhancements will be finalized when ICGS reviews the Coast
Guard’s recommendations, identifies possible alternatives, and develops
detailed design drawings of the changes. Structural enhancements to
improve the NSC’s fatigue life need not be done immediately. Hulls #1 and
#2 will have much of the work done after delivery. NSC hulls #3 through #8
will incorporate design changes during construction. Any known or
suspected fatigue concerns will be addressed when this design change is
incorporated on the NSC. In the end, the NSC will be designed to achieve a
30-year service life.

OIG Response: We are concerned that the Coast Guard’s former Assistant
Commandant for Systems, as the Coast Guard’s “Chief Engineer,” was
unable to convince the Deepwater PEO that significant problems persisted
with the structural design of the NSC and that “several of these problems
compromise the safety and viability of the [NSC] hull.” These concerns,
which had been independently verified by shipbuilding industry experts,
were spelled out in the Assistant Commandant for Systems’ March 29, 2004,
memorandum to the Deepwater Program Executive Officer. Further, the
memorandum explicitly recommended that the Deepwater PEO hold the
impending task order for the production of NSC 1 in abeyance until a
resolution to the structural design problems could be achieved. Despite these
warnings, the Coast Guard went ahead with the issuance of four work orders,
i.e., Delivery Task orders (DTOs) authorizing the expenditure of more than
$406 million for the production and deployment of NSCs 1, 2, and 3. We
remain concerned that: (1) the construction of NSCs 1 and 2 may be too far
along in the construction process to resolve these structural deficiencies; (2)
the Coast Guard may have to impose operating restrictions on NSCs 1 and 2
should these vessels be deployed to the Gulf of Alaska (North Pacific) region
as is currently planned; and (3) construction of NSCs 4-8 will commence
before all outstanding NSC performance standard issues, i.e., fatigue life
requirements, etc., are fully-resolved.


U.S. Coast Guard Comment: There are several methods which the naval
engineering community could use to predict a ship’s service life. Choice of
methodology, entering arguments and assumptions, and desired margins
greatly influence the outcome and lead to differing conclusions. RADM
Brown’s memo 9050 of 29 March 2004 noted that “… even the best
engineers can disagree on data, and in their analyses, conclusions and
recommendations.” Production decisions were made with these thoughts in
mind as well as other programmatic factors such as cost, schedule and
performance.


  Acquisition of the National Security Cutter, U.S. Coast Guard

                            Page 30
OIG Response: We agree with the Coast Guard that even the best engineers
can disagree on data, and in their analyses, conclusions, and
recommendations. However, in this case, the Deepwater PEO, who was
neither a naval architect nor a structural engineer, repeatedly ignored the
advice of technical experts with decades of experience designing,
constructing, or operating cutters and naval combatants. Further, ICGS and
Northrop Grumman Ship Systems (NGSS) have yet to publicly acknowledge
that there are any problems associated with the NSC design despite pervasive
evidence indicating otherwise.


U.S. Coast Guard Comment: The NSC program manager provided DHS
OIG a very succinct summary of the rationale leading to the decision to
award the NSC #1 production DTO. The summary indicated that "no formal
Cost-Benefit Analysis" was conducted, but clearly laid out the decision
factors based on the information that was available at that time. The NSC
program manager specifically stated that “…pre-production activities were
already underway in preparation for the start of construction (e.g.,
fabrication of jigs and fixtures, scheduled job orders issued throughout the
yard, material ordered, labor assignments made)…any disruption of the
normal production effort would have been very costly due to not only the
direct increase in escalation and material handling costs from shifting the
construction effort to the right, but the inevitable impact on the NSC and
Navy shipbuilding programs within the yard resulting from changes to
carefully planned and integrated material, labor, and facility assignments …
if the independent analysis did provide conclusive evidence …of deficiencies
in the structural details, the System Integrator would be responsible to
correct them… given the uncertainty of the validity of … structural concerns
and the certainty of the significant delay and disruption costs the
Government would incur, as well as the real urgency of delivering NSC’s to
the fleet to replace rapidly-deteriorating legacy assets, the Program Office
decided to proceed with production." The memorandum to award DTO
0030BC, from Mr. Gregory Giddens, COMDT, (G-Dd) to Ms. Cathy
Martindale, COMDT, (G-ACS-6) of 22 June 2004 states; “I believe we have
achieved a balance between the risk of moving forward and the risk of not
moving forward.”

The decisions regarding NSC structures reflected more than simply the naval
engineering perspective; rather, they also encompassed considerations of
cost, schedule, and performance, as required by the PEO’s charter.

OIG Response: We stand by our assertion that the Coast Guard failed to
document key Deepwater decisions impacting the design and construction of
the NSC. This was especially true regarding the Coast Guard’s decision to
go ahead with production of NSC against the written advice of its Assistant
Commandant for Systems. While the Coast Guard provided us with the basic
rationale underlying its decision to go ahead with production of NSC 1, it
  Acquisition of the National Security Cutter, U.S. Coast Guard

                            Page 31
was unable to provide a breakdown of the cost and schedule data to support
its decision as required by the Deepwater Program Management Plan.
Further, the Coast Guard has acknowledged to us that documentation of key
Deepwater decisions was a problem and that no formal cost/benefit analyses
were conducted prior to authorizing production of NSC 1. As a result, we
could not determine the thoroughness of the analyses underlying the
decision. We also could not determine the role that the Coast Guard’s senior
leadership, i.e., Commandant, Vice Commandant, and Chief of Staff, played
in any deliberations preceding this decision, or the extent to which it was
aware of the NSC design concerns outlined in the Assistant Commandant for
Systems’ March 29, 2004, memorandum.

We continue to believe that the absence of complete records to support key
acquisition decisions limits the ability of those with oversight responsibility –
the Congress, the department, senior Coast Guard leadership, and our office –
to understand fully the circumstances, conditions, and rationales underlying
these decisions. In addition, documentation supporting key decisions
provides transparency of information and can lead to self-correcting
behavior. It also provides the appropriate level of accountability for
technical oversight of the Deepwater Program. To this extent, the Coast
Guard must ensure that the basis for all key decisions associated with the
acquisition of assets acquired under the Deepwater Program are fully,
consistently, and accurately documented.


U.S. Coast Guard Comments No. 3: [The OIG] Inaccurately
characterizes cost data:

Cost data in the report inaccurately reflects the NSC #1 and #2 cost impacts
associated with post 9/11 changes and government items. In November 2006
the table below was provided to the DHS OIG and specifically discussed in
follow-on meetings. It indicates that the projected budget amount for the
NSCs is approximately $960M for NSC #1 and #2. However, in the report,
the DHS OIG labels a cost summary table as a “Coast Guard source” and
indicates that the Coast Guard stated the project cost was approximately
$775M. The Coast Guard believes the table below accurately breaks down
and explains the associated cost elements for NSC #1 and #2.




   Acquisition of the National Security Cutter, U.S. Coast Guard

                             Page 32
Chart 1 using OMB Inflation of 1.85%
(Dollars in Millions)                                NSC #1        NSC #2             Total
June 02 Contract Proposal in 2002$ (A)                 $322.20        $194.60           $516.80
Post 9/11 Changes and Government Items in
2002$ not in Contract Proposal of 2002 (B)             $144.16          $116.87          $261.03
                            Total before Inflation     $466.36          $311.47          $777.83
Inflate from 2002$ to 2006$ using
1.85% OMB Factor ( C )                                  $35.50           $23.70           $59.20
Total Cost after adding in Government Items
and Inflating by 1.85%                                 $501.86          $335.17          $837.03
Hurricane Katrina Amounts added in 2006 (D)                                              $123.00
Updated Total                                                                            $960.03

Notes:
A. Only ICGS Costs
B. ICGS Costs Plus CG Post 9/11 Changes necessitate by the Homeland Security Act and
Government items such as Testing and Evaluation as well as other Full Operational Capability
amounts.
C.OMB required USCG to use a 1.85% inflation Factor
D. Congress funded an additional $123M in FY2006 for Hurricane related costs for the NSC 1 and
the NSC 2




OIG Comments: The Coast Guard’s response contends that the NSC cost
data cited in our draft report inaccurately reflects the NSC costs incurred to
date. We respectfully disagree. The cost data contained in our report was
derived directly from a chart that was hand-delivered by the Coast Guard
Commandant to the Inspector General during a meeting held on November
22, 2006. This cost data excluded the $302 million Request For Equitable
Adjustment submitted by ICGS; the $123 million costs associated with
Hurricane Katrina; and the cost of the “structural enhancements” to be made
to the NSC. We did not include this cost data in our report because: (1) the
Coast Guard is engaged in negotiations with ICGS over the amount of the
REA and we did not want to compromise ongoing negotiations; (2) the
Coast Guard was unable to document the NSC costs associated with
Hurricane Katrina; and (3) negotiations between the Coast Guard and ICGS
regarding the number, scope, and cost of the NSC structural enhancements
were ongoing. It is expected that these costs will add hundreds of millions
of dollars to the cost of the NSC. We remain concerned that these and other
cost increases could result in the Coast Guard acquiring fewer NSCs or other
air and surface assets under the Deepwater contract.


U.S. Coast Guard Comment No. 4: [The NSC Report] Illustrates the
DHS OIG’s lack of understanding of the acquisition strategy utilizing
Performance Based Contracts.

The IDS program is not a traditional acquisition approach. The contract
embraces acquisition reform in an effort to curtail costs and maintain




   Acquisition of the National Security Cutter, U.S. Coast Guard

                                  Page 33
                           schedule. Law and regulation29 establish a preference for performance-based
                           acquisition. Federal acquisition policies seek outcomes that are more
                           competitive, entrepreneurial, and performance oriented. This approach gives
                           industry the flexibility to achieve alternative options better suited to the
                           government’s needs.

                           The Deepwater Program is guided by a system-wide, performance-based
                           acquisition approach. In addition to surface and aviation assets, the
                           acquisition strategy recognizes that interoperability, integrated logistics
                           support, human systems integration, and life-cycle considerations must be
                           addressed at the inception of the program.

                           Best practices incorporated in the IDS program include the notion that the
                           government’s focus should be on performance – measurable results. Unlike
                           past asset-for-asset replacement programs, the Coast Guard’s contract with
                           ICGS provided industry with specifications for the system-wide capabilities
                           the Coast Guard needs to perform its IDS missions rather than specifications
                           for specific assets (With the exception of the NSC, the Coast Guard did not
                           specify or require any particular asset in the IDS system solution, let alone
                           technical specifications.) This performance-based approach directly links
                           mission requirements to industry solutions.

                           Nonetheless, the Coast Guard recognizes the imperative to keep the basic
                           elements of the IDS acquisition program squarely in focus. Cost, schedule,
                           and performance are the fundamental building blocks. It is our obligation to
                           deliver assets and systems on or below cost, on or before schedule, and with
                           at least the minimal threshold performance that the government has
                           stipulated. While performance-based acquisition allows the Coast Guard
                           some opportunities to gain value for the government above and beyond
                           traditional methods, it does not mean we have abandoned those methods; the
                           two are complementary.

                           The Deepwater Program, the largest acquisition in Coast Guard history, is
                           fully committed to continuing process improvement as a learning
                           organization. The Government Accountability Office framework for
                           acquisition management is used to assess the program and identify areas
                           where improvement is necessary. The Coast Guard recognizes the need for
                           program management reforms to improve acquisition project execution and
                           is proceeding with the sense of urgency to be expected from an agency whose
                           core value is public service. A series of measures30 is being aggressively

29
   Over the last decade and a half, innovators in Congress and the executive branch have reformed the laws and policies
that govern Federal acquisition. Among the most important of these reforms are the Government Performance and
Results Act of 1993, the Federal Acquisition Streamlining Act of 1994 (FASA), and the Clinger-Cohen Act of 1996.
30
   Business processes have been strengthened, new evaluation criteria have been developed for Deepwater’s follow-on
contract term, the primacy of Coast Guard technical authority has been reaffirmed; Coast Guard’s chief engineer has
been assigned greater responsibility to review ship designs, independent, third-party technical evaluations of industry’s
proposed designs for new assets are now required and regularly obtained, staffing at manufacturing facilities for

                              Acquisition of the National Security Cutter, U.S. Coast Guard

                                                         Page 34
                          implemented to ensure more effective oversight, sound stewardship of
                          taxpayer dollars, and timely delivery of much-needed assets.

                          OIG Response: The Coast Guard’s comments that we lack an
                          understanding of the acquisition strategy utilizing Performance Based
                          Contracts are misinformed.

                          The Coast Guard’s Integrated Deepwater System acquisition approach
                          recognizes the need for a comprehensive, systemic solution to the complex
                          challenges of upgrading existing assets and acquiring state-of-art ships and
                          aircraft. The Coast Guard’s performance-based acquisition strategy to
                          address these challenges is, in our opinion, a good one. Partnering with the
                          private sector adds fresh perspective, insight, creative energy, and
                          innovation to the Coast Guard’s effort to meet its multi-mission
                          responsibilities. It shifts the focus from traditional acquisition models, i.e.,
                          strict contract compliance, into one of collaborative, performance-oriented
                          teamwork with a focus on performance, improvement, and innovation.

                          Nevertheless, using this type of approach does not come without risks. To
                          ensure that this partnership is successful, the Coast Guard must lay the
                          foundation to oversee and assess contractor performance, and control costs
                          and schedules. The Coast Guard has not yet laid that foundation, at least not
                          fully.

                          Specifically, the Coast Guard’s acquisition management capacity lacks the
                          appropriate work force, business processes, and management controls for
                          executing a major acquisition program such as the Integrated Deepwater
                          System. Key positions are still being identified and filled. The Coast Guard
                          is still trying to come from behind and create the organization needed to
                          manage the program. That is why we believe the Coast Guard needs to
                          proceed with caution as it moves forward with the implementation of the
                          Integrated Deepwater System initiative. Expediency and urgency should not
                          drive the acquisition; instead, the Coast Guard needs to ensure that it has the
                          capacity to manage such an initiative. Then, and only then, can it provide
                          assurances that it is being a good steward of the taxpayers’ dollar.
                          Also, the Coast Guard needs to ensure performance management systems
                          and processes are in place and functioning. The design flaws of the NSC, as
                          well as the problems that the Coast Guard has experienced with the System
                          Integrator’s design of the Fast Response Cutters and the 123-Cutters, clearly
                          demonstrate that improvements are needed. The Coast Guard needs to build
                          the management and oversight capacity that will allow it to acquire the



Deepwater platforms is being increased to place a sharper focus on higher quality contract performance, we are filling
vacancies in our own Deepwater workforce and improving its training, certification, recruitment, and retention and we
have shifted more funding to program management activities.


                              Acquisition of the National Security Cutter, U.S. Coast Guard

                                                        Page 35
                            assets it needs to accomplish its mission. Furthermore, the Coast Guard
                            needs to build a performance management system that will ensure:

                            •    Transparency – a clear roadmap on how the systems integrator plans to
                                 meet the Coast Guard’s deepwater objectives.
                            •    Visibility – a clear, open line of communications with all stakeholders
                                 on the progress of the initiative.
                            •    Accountability – the means to determine, on a real time basis, what is
                                 working and what is not working.
                            •    Oversight – including not only by the Coast Guard’s technical and
                                 program management offices, but also by the OIG and the Congress.


                            U.S. Coast Guard Comment No. 5: [NSC Report] Mischaracterizes the
                            level of Coast Guard cooperation during the conduct of this audit:

                            While the Inspector General Act of 1978 provides that the IG is to have
                            “access to all records, reports, audits, reviews, documents, papers,
                            recommendations, or other material available,” neither the Act nor DHS MD
                            #0810.1 specifically stipulates the manner in which access to information is
                            to occur.31 Instead, both the Act and MD #0810.1 direct that the IG and the
                            audited agency conduct audits consistent with the standards issued by the
                            Comptroller General of the United States.

                            At the start of all reviews of Coast Guard programs by external audit
                            organizations, the Office of Budget and Programs (CG-82) meets with the
                            auditors and discusses the Coast Guard’s policies and procedures with
                            regard to audit protocol. The Coast Guard’s audit procedures follow the
                            guidelines established by the Government Accountability Office (GAO)
                            within the Generally Accepted Government Auditing Standards (GAGAS).
                            As stated above, the GAGAS provides the appropriate framework for all
                            audits conducted by staff of an Inspector General’s Office.

                            The GAGAS sets forth policies and procedures to assist auditors in obtaining
                            data /information, scheduling meetings and interviews with appropriate staff,
                            conducting follow up meetings and ensuring compliance with all requests.
                            Equally important, it also helps to minimize the disruption to and
                            administrative burden upon agencies being audited.

                            The Coast Guard has adhered to these procedures for several years,
                            resulting in productive and successful audit efforts with teams from the GAO,
                            the Department of Transportation Inspector General’s Office (DOTIG) and
                            the Department of Homeland Security Office of Inspector General (DHS

31
     Inspector General Act of 1978, §4(b)(1)(A), 5 U.S.C. App. 3 (Westlaw 2006).

                                Acquisition of the National Security Cutter, U.S. Coast Guard

                                                          Page 36
OIG). These procedures have enabled the Coast Guard to assist audit teams,
as well as Coast Guard program offices, during the conduct of numerous
audits. The Coast Guard has a long history of cooperation with external
audit organizations and uses these long-established audit management
procedures to ensure employee cooperation, timeliness in response, and
efficiency in gathering information.

At no time during the NSC review did the Coast Guard deny DHS auditors
access to Coast Guard personnel or any information requested by the audit
team. Our numerous requests for the DHS OIG audit team to follow the
Coast Guard’s audit management procedures were deliberately made to
expedite delivery of information and responses to the audit teams’ inquiries,
as well as to maintain internal awareness of auditors’ needs. In fact, the
DHS OIG used the Coast Guard’s established procedures and asked for CG-
82 assistance when they were unable to directly find desired subject matter
experts or they were not satisfied with responsiveness to direct data requests.
Notwithstanding our ordinary practice, the Coast Guard responded to the IG
concerns by providing guidance that information requested by the DHS OIG
could flow directly from the interviewed Coast Guard employees to the OIG
audit team. In no instance did the Coast Guard prevent any employee from
initiating a meeting with the audit team or deny to any employee rights under
the Whistleblower Protection Act.

OIG Response: The Coast Guard admits that our office is entitled to full
access to all agency information, but contends that it, not our office, can
determine “the manner” in which access is to occur. The law, agency
policy, and governing audit procedures flatly contradict the Coast Guard’s
position. Under the IG Act, DHS MD, and GAGAS, under which our audits
are conducted, it is our office, not the Coast Guard that determines what
information must be produced as well as how it is to be produced.

The Coast Guard contends that it cooperated with our office and followed
GAGAS. It did not. The Coast Guard challenged and continues to challenge
our requests for unfettered access to its active duty and civilian employees,
documents, and information. Specifically, the Coast Guard imposed
unacceptable conditions on our right of access by requiring a pre-brief for
interviews and requiring that interviews be cleared through a centralized
component. Further, the Coast Guard prohibited interviewees from
providing documents directly to our staff, and required that that all
documents first be reviewed and cleared. The Coast Guard also insisted that
its management attend all interviews. Finally, the Coast Guard personnel
were required to report all contacts they may have had with our staff.

These conditions are totally unacceptable. Agency personnel often are more
comfortable and candid when discussing matters confidentially with our
auditors without a supervisor or other management official present. We seek
to learn the facts, not the “company line.” Likewise, personnel ought to be
  Acquisition of the National Security Cutter, U.S. Coast Guard

                            Page 37
free to provide government documents directly to our auditors, without such
documents first being reviewed or sanitized. Nevertheless, we never rely
only on a single interviewee or document; instead, we check and crosscheck
all information. And, in compliance with government-wide auditing
standards, we provide a draft of our findings to the auditee for review and
comment, a failsafe mechanism intended to eliminate any factual errors or
misrepresentations.

We explained these procedures and protections to the Coast Guard and asked
that they remove the obstacles to our having unfettered access to personnel
and documents. Following several weeks of discussion during which the
Coast Guard refused to budge, we ultimately suspended all fieldwork. All
fieldwork remained suspended for five weeks, until a senior Coast Guard
official issued a memorandum to the Coast Guard’s Engineering Logistics
Center personnel bringing a portion of the Coast Guard into compliance with
the IG Act and DHS Management Directive. Inexplicably, the Coast Guard
limited the memorandum not only to a portion of its workforce, but made it
applicable for this audit only, foreshadowing a continued uncooperative
posture toward our office.

The Coast Guard claims that it has “a long history of history of cooperation
with external audit organizations.” Our office, however, is an “internal”
audit organization, unlike the GAO, and procedures the Coast Guard has
used with the GAO simply do not govern interactions with our office. We
operate under an entirely different statutory scheme. Likewise, the Coast
Guard claims it has “a long history” of cooperation and had worked
successfully in the past with the DOT OIG. Whatever the Coast Guard’s
working relationship has been with another entity, its working relationship
with us, for the reasons explained above, has been unacceptable.


U.S. Coast Guard Comment: As part of the NSC review, DHS auditors
sought to interview contractor personnel at ICGS. ICGS personnel agreed to
being interviewed by OIG; however, as a condition precedent, the
contractors asked to have additional representatives present at the interviews
to ensure accuracy of information. DHS auditors elected not to interview
these individuals at all. Their decision resulted in a gap of information from
which to substantiate the findings in the NSC report.
The DHS Chief Financial Officer and Office of General Counsel currently
are working to promulgate Department-wide guidance and process
procedures concerning relations between the DHS OIG and DHS
components. The Coast Guard strongly supports these efforts and will
comply with all guidance established by DHS.

OIG Response: We experienced significant difficulties in obtaining access
to ICGS personnel knowledgeable of the structural design and performance
issues associated with the NSC. IGCS interposed many of the same
  Acquisition of the National Security Cutter, U.S. Coast Guard

                            Page 38
obstacles initially used by the Coast Guard, such as unacceptable and
burdensome preconditions on interviews by requiring advance written
identification and justification of interview topics, refusal to permit private
interviews, and insistence that management personnel attend all interviews.
The Coast Guard claims the contractor merely sought “to ensure accuracy of
information,” an incongruous argument given the delayed and incomplete
responses to our document requests. The government auditing standards
provide multiple safeguards to ensure that information contained in a final
audit report is accurate. Indeed, the Coast Guard and its contractors had at
least six different opportunities to review and comment on our draft reports.

Believing that interviews conducted under the conditions imposed by ICGS
would be of dubious utility, we declined to conduct them. In the absence of a
contract clause such as that contained in Recommendation 6 of this report,
questions remained about our authority to compel private interviews.
Extensive, and likely fruitless, negotiations with ICGS obviously would be
required, and we were unwilling at that point to add to the delays in
completing the audit that we already had experienced.

The Coast Guard says that the DHS Chief Financial Officer and Office of
General Counsel are working to promulgate department-wide guidance on
dealing with our office. Inexplicably, no one ever has notified us of such
discussions, much less invited us to participate. More importantly, no new
protocols are needed—DHS Management Directive 0810.1 already requires
all DHS employees to “cooperate fully” with our office. Instead, what is
needed is departmental support and enforcement of the existing procedures.
To this end, we prepared, for the Secretary’s signature, a one-page
memorandum to all DHS personnel identifying our authorities and
instructing them to cooperate with our office. We also prepared a four-page
document providing “Frequently Asked Questions” regarding interactions
with our auditors and inspectors. Both documents were provided to senior
department officials in July 2006, and despite repeated requests and
meetings, neither has been issued.

The need for Departmental support is undeniable, evidenced not only by the
obstructions interposed by the Coast Guard and its contractors, but by the
fear Coast Guard personnel have of cooperating with our office. These fears
reached a crescendo and necessitated that a briefing on participation in OIG
audits be provided to personnel at the Engineering Logistics Center, the place
where many of the NSC structural design concerns were first identified.

In summary, the impediments we experienced in obtaining access to
personnel, information, and documentation are unacceptable in light of the
statutory mandates of our office; the severity of the NSC design and
performance deficiencies; the importance of the NSC to the Coast Guard’s
national security and Deepwater missions; and the expenditure of billions of
dollars that are being invested in this critical acquisition.
  Acquisition of the National Security Cutter, U.S. Coast Guard

                            Page 39
SPECIFIC COAST GUARD RESPONSES TO DHS OIG
RECOMMENDATIONS:

Recommendation #1:
Develop and implement a plan to ensure the National Security Cutter is
capable of fulfilling the operational profiles as defined in the Deepwater
contract. The plan should include a detailed description of the
modifications to be made, including any requests for waivers/deviations
from the Deepwater performance specifications. In addition, the plan
should include timelines, milestones, and quarterly reporting
requirements outlining the progress being made, the identity of the
organizational entities to be responsible for implementation, and any
short and long-term funding requirements.”

U.S. Coast Guard Comment: The Coast Guard’s Assistant Commandant
for Engineering and Logistics (CG-4) and the Deepwater PEO have
developed a plan to accommodate more robust fatigue-life margins to ensure
a full 30-year service life. A cross-functional team composed of personnel
from the IDS Program, independent contractors and CG-4 has developed a
technical solution that will be reflected in an Engineering Change Proposal
(ECP) submitted by the contractor. The modifications included in the
solution will be installed on NSCs #1 and #2 after delivery; modifications to
NSC #3 and beyond will be incorporated during production. Any known or
suspected fatigue concerns will be addressed with these design changes.

OIG Response: The Coast Guard’s response does not indicate whether it
concurs or non-concurs with this recommendation. Consequently, this
recommendation will remain open and subject to follow up procedures until
the Coast Guard develops a detailed and verifiable plan to ensure that all
eight NSCs will be capable of operating underway for 230 days a year (on
average) under Caribbean (General Atlantic) and Gulf of Alaska (North
Pacific) conditions as required by the Deepwater contract. If the Coast
Guard is unable to come up with a plan to ensure the NSC meets Deepwater
contract performance requirements, it should say so, explain why, and detail
the steps to be taken to compensate for the reduced operational capability.


Recommendation #2:
Provide assurances that a solution to the cutter’s structural design issues
is fully developed and the costs associated with the solution are identified
before issuing new NSC Delivery Task Orders for National Security
Cutters #3 through #8.

Coast Guard Comment: An Engineering Change Proposal (ECP) has been
developed and will be priced and negotiated. This proposal will incorporate

  Acquisition of the National Security Cutter, U.S. Coast Guard

                            Page 40
the remaining structural improvements into the design to address the fatigue
issues associated with the 30-year service life in NSC #3 through #8. A
retrofit plan for NSC #1 and #2 will be developed upon completion of the
detailed design for NSC #3.

OIG Response: The Coast Guard’s response does not clearly indicate
whether it concurs or non-concurs with our recommendation. We believe
that any solution to the structural design and fatigue life issues associated
with the NSC will be complex, time-consuming, and expensive. Further, the
Coast Guard has yet to resolve the ambiguity surrounding the 230-day
underway requirement to our satisfaction. Consequently, this
recommendation will remain open and subject to follow-up procedures until
the Coast Guard has: (1) developed an ECP that will enable the NSC to meet
the 230-day underway requirement as outlined in the Deepwater contract;
(2) identified all costs associated with the ECP; and, (3) agreed to delay the
issuance of additional NSC DTOs for NSCs 3 through 8 while the ECP and
the costs associated with the ECP are being developed and verified.


Recommendation #3:
Develop the policies and procedures necessary to empower the Assistant
Commandant for Systems with greater, more formal technical authority
to ensure that assets acquired under Deepwater meet all design and
technical performance requirements.

U.S. Coast Guard Comment: CG-4 is the Coast Guard’s Technical
Authority for the Deepwater Program, and CG-4’s opinion and expertise are
highly valued in making technical decisions. Indeed, CG-4 has been the
technical lead in determining modifications to the NSC to meet the 30-year
service life. According to the PEO’s Charter, cost, schedule, and
performance must be taken into consideration when moving forward with a
major programmatic decision. CG-4 provides the Program Manager with
technical decisions and is not required to consider cost and schedule in its
deliberations, although it may elect to do so. G-D and CG-4 have an active
ongoing dialogue, and CG-4’s recommendations are utilized.

When discussing the role of the Technical Warrant Holder (TWH), the DHS
OIG refers to traditional U. S. Navy ship design and ship construction
contracts. In such instances, the TWH actually writes and approves the
shipbuilding specifications. It is the TWH’s responsibility to ensure that the
ship design agent has correctly interpreted the requirements of the
shipbuilding specifications and translated those requirements into a
technical data package that includes construction drawings. The TWH,
therefore, has a major responsibility at the beginning of the ship-design
process in a traditional acquisition. Under this performance-based


  Acquisition of the National Security Cutter, U.S. Coast Guard

                            Page 41
                           acquisition there is no government supplied design or technical data
                           package; hence there is no TWH role within the project.32

                           OIG Response: The Coast Guard’s response does not clearly indicate
                           whether it concurs or non-concurs with our recommendation. Secondly, we
                           disagree with the Coast Guard’s contention that there is no role for a TWH
                           (or its equivalent) within the Deepwater Project. Specifically, it is not
                           sufficient for the Coast Guard to say that the Assistant Commandant for
                           Systems is its “Technical Authority for the Deepwater Program.” This is the
                           same authority that existed when the former Assistant Commandant for
                           Systems issued his March 29, 2004, memorandum. It did not work then and
                           there is no guarantee it will work now or in the future. We believe the
                           Assistant Commandant for Systems should have the authority to enforce
                           asset performance requirements and to adjudicate technical disputes
                           associated with assets being acquired under the Deepwater Program or other
                           Coast Guard acquisition projects. To close this recommendation, the Coast
                           Guard will need to provide documentation verifying that the Assistant
                           Commandant for Systems has the authority to enforce asset performance
                           requirements and to adjudicate technical disputes associated with the NSC
                           and any other air and surface assets acquired under the Deepwater Program.


                           Recommendation #4:
                           Amend future Award term decision criteria to include the cost, schedule,
                           design, and performance evaluations of all assets under development, in
                           addition to any Deepwater assets, platforms, or systems delivered during
                           the evaluation period.

                           U.S. Coast Guard Response: A step in the Award Term process involves
                           Coast Guard determination of criteria to be used in evaluating ICGS in the
                           next Award Term. This new criterion was signed and provided to ICGS on
                           July 27, 2006. As a result of lessons learned during the initial base period,
                           the Coast Guard has redefined the criteria to include consideration for cost
                           control, operational effectiveness, program management and execution,
                           logistics and competition on all assets regardless of their stage of
                           development and delivery.



32
  Fundamentally, all major acquisition programs must have the complete authority to appropriately balance the
inherently competing factors of performance and technical risk versus program cost and schedule. The IDS Program
will continue to value and rely heavily on the oversight and input provided by CG-4 to establish the right standards and
to review any suggested changes to those standards. The Program will also continue to use a combination of subject
matter experts from the Navy’s SUPSHIP, Coast Guard Directorates, ICGS, and ABS in the collaborative certification
of IDS surface assets. However, CG-4 is and will continue to be used to interpret and resolve these often-diverse
technical opinions.


                              Acquisition of the National Security Cutter, U.S. Coast Guard

                                                        Page 42
The Award Term evaluation process for the 60-month base performance
period was established at contract award (June 2002) with an annual
assessment of three factors: Operational Effectiveness (OpEff), Total
Ownership Cost (TOC), and Customer Satisfaction. The criteria used for
each factor were detailed in an attachment to the contract and were agreed
to by both the government and ICGS prior to contract award in June 2002.

All of the facts regarding the NSC program were known to the Award Term
Determining Official (ATDO) who, at the time of award, was the IDS PEO.
The new Award Term Plan was placed on contract July 27, 2006 and is now
in effect. This includes elevating the ATDO to the Agency Acquisition
Executive (AAE) position. The new criteria were provided to the DHS OIG
August 8, 2006.

OIG Response: The Coast Guard’s response does not clearly indicate
whether it concurs or non-concurs with the recommendation. We believe the
Award Term used to evaluate the performance of ICGS during the first four
years of the contract did not properly account for the cost, schedule and
performance issues associated with the NSC or the FRC, which date back to
December 2002 and May 2005, respectively. Had they done so, it is arguable
whether the Deepwater contract would have renewed for the additional 43-
month period. To close this recommendation, the Coast Guard will need to
provide documentation verifying the Deepwater Award term criteria includes
the cost, schedule, design, and performance evaluations of all assets under
development, in addition to any Deepwater assets, platforms, or systems
delivered during the evaluation period.


Recommendation #5:
Ensure that the rationale underlying all key decisions associated with the
design, construction, and implementation of all assets acquired under
the Deepwater Program is formally documented and approved by senior
management.

U.S. Coast Guard Comment: The Coast Guard agrees with the
importance of documenting key decisions and has undertaken efforts and
implemented systems to improve documentation management.

Mechanisms are now in place to ensure appropriate milestone entrance and
exit criteria are understood and met, and documented in IPT minutes and
action-item tracking systems. Bi-weekly Program Management reports keep
the PEO and other internal and external stakeholders aware of updates and
challenges. The PEO also meets with the AAE monthly to discuss
programmatic issues. Congress, the GAO, The Office of Management and
Budget (OMB), and DHS OIG receive quarterly briefings and reports to keep
them up to date on the program’s status.

  Acquisition of the National Security Cutter, U.S. Coast Guard

                            Page 43
OIG Response: The Coast Guard’s response does not clearly indicate
whether they concur or non-concur with this recommendation.
Consequently, the recommendation will remain open until the Coast Guard
provides evidence showing that it is requiring key decisions to be formally
documented, including the rationale underlying the decisions and the
disputes and solutions associated with the design, construction, or
implementation of assets acquired under the Deepwater Program.


Recommendation #6:

Ensure that all future Department contracts, including those governing
the Deepwater acquisition, contain terms and conditions that clearly
stipulate the Department of Homeland Security, Office of Inspector
General’s right of unfettered access to contract and subcontract
documents and personnel, including private, confidential interviews,
information, inter-office correspondence and pre-decisional
documentation.

U.S. Coast Guard Comment: Defer to the Department of Homeland
Security, Chief Procurement Officer.

OIG Response: The Coast Guard’s response does not clearly indicate
whether they concur or non-concur with this recommendation. We believe
the Coast Guard has the authority to include the recommended provision in
its contracts and has chosen not to take this action unless required to do so by
the department.

We also believe that unfettered access to contract personnel, documents, and
information associated with DHS acquisitions is required by law, will
provide transparency, and significantly improve the oversight capability of
the department and our office. It will also increase the public’s confidence
that taxpayer funds are being utilized in an effective and responsible manner.
For these reasons, we strongly urge the Coast Guard to reconsider its position
to implement the recommendation.




  Acquisition of the National Security Cutter, U.S. Coast Guard

                            Page 44
Appendix A
Purpose, Scope, and Methodology
_________________________________________________________________________________


                  The objective of this audit was to determine the extent to which the NSC will
                  meet the cost, schedule, and performance requirements contained in the
                  Deepwater program contract.

                  We notified the Coast Guard of the initiation of our audit and held an entrance
                  conference with Coast Guard personnel on September 7, 2005. From that
                  time until September 28, 2005, our fieldwork consisted of analyzing relevant
                  program information obtained through independent research, document
                  requests, and private interviews with Coast Guard personnel.

                  We interviewed and obtained documents from current and former military and
                  civilian employees of the Coast Guard, including representatives of the
                  Deepwater Program Office, and the Systems and Acquisitions Directorates.
                  We also interviewed and obtained documents from external sources, including
                  representatives of the American Bureau of Shipping and the U.S. Navy’s
                  Naval Surface Warfare Center, Carderock Division.

                  On September 28, 2005, we suspended our fieldwork due to the challenges we
                  encountered to our authority by the Coast Guard to conduct private interviews
                  with its personnel. On October 21, 2005, the Coast Guard Chief of Staff
                  issued guidance, limited to this audit, which authorized all Coast Guard
                  personnel and contractors to meet privately with our audit team. As a result,
                  on November 1, 2005, we resumed our audit fieldwork, which consisted of:

                     •    Reviewing prior audits on the Integrated Deepwater System program;
                     •    Reviewing publicly available background information on the
                          Deepwater program and the acquisition of component assets;
                     •    Reviewing the Deepwater contract and related program documents,
                          technical information and asset designs, financial data, and internal
                          and external Coast Guard communications, including emails,
                          memoranda, reports, and past presentations provided by the Coast
                          Guard Office of Budget and Programs (CG-82);
                     •    Attending Coast Guard prepared briefings related to the production of
                          the NSC;
                     •    Conducting in-person interviews with current and former Coast Guard
                          military and civilian personnel;
                     •    Conducting in-person interviews with American Bureau of Shipping
                          and U.S. Navy representatives; and;
                     •    Analyzing Coast Guard budgetary allocations and requests in support
                          of the Deepwater program for Fiscal Years 2002 through 2007.




                     Acquisition of the National Security Cutter, U.S. Coast Guard

                                               Page 45
Appendix A
Purpose, Scope, and Methodology
_________________________________________________________________________________

                  We also intended to interview employees of, and review documents provided
                  by Integrated Coast Guard Systems, the Deepwater Systems Integrator, and its
                  two Tier 1 sub-contractors: Northrop Grumman Ship Systems and Lockheed
                  Martin Corporation. In response to a request for confidential interviews with
                  its employees, ICGS refused, stating that since there was no ICGS policy
                  regarding procedures for participation in a DHS/OIG audit, we would have to
                  comply with the separate policies of Lockheed Martin Corporation and
                  Northrop Grumman Ship Systems, as appropriate. To date, we have not
                  received copies of said policies. The lack of participation in this audit by
                  ICGS, LM, and NGSS prevented us from taking into account their informed
                  and relevant perspectives on critical decisions relating to the design and
                  production of the NSC.

                  We conducted this audit according to generally accepted government auditing
                  standards and pursuant to our authority under the Inspector General Act of
                  1978, as amended.




                     Acquisition of the National Security Cutter, U.S. Coast Guard

                                               Page 46
Appendix B
Management’s Comments to the Draft Report
_________________________________________________________________________________




                     Acquisition of the National Security Cutter, U.S. Coast Guard

                                               Page 47
Appendix B
Management’s Comments to the Draft Report
_________________________________________________________________________________




                     Acquisition of the National Security Cutter, U.S. Coast Guard

                                               Page 48
Appendix B
Management’s Comments to the Draft Report
_________________________________________________________________________________




                     Acquisition of the National Security Cutter, U.S. Coast Guard

                                               Page 49
Appendix B
Management’s Comments to the Draft Report
_________________________________________________________________________________




                     Acquisition of the National Security Cutter, U.S. Coast Guard

                                               Page 50
Appendix B
Management’s Comments to the Draft Report
_________________________________________________________________________________




                     Acquisition of the National Security Cutter, U.S. Coast Guard

                                               Page 51
Appendix B
Management’s Comments to the Draft Report
_________________________________________________________________________________




                     Acquisition of the National Security Cutter, U.S. Coast Guard

                                               Page 52
Appendix B
Management’s Comments to the Draft Report
_________________________________________________________________________________




                     Acquisition of the National Security Cutter, U.S. Coast Guard

                                               Page 53
Appendix B
Management’s Comments to the Draft Report
_________________________________________________________________________________




                     Acquisition of the National Security Cutter, U.S. Coast Guard

                                               Page 54
Appendix B
Management’s Comments to the Draft Report
_________________________________________________________________________________




                     Acquisition of the National Security Cutter, U.S. Coast Guard

                                               Page 55
Appendix B
Management’s Comments to the Draft Report
_________________________________________________________________________________




                     Acquisition of the National Security Cutter, U.S. Coast Guard

                                               Page 56
Appendix B
Management’s Comments to the Draft Report
_________________________________________________________________________________




                     Acquisition of the National Security Cutter, U.S. Coast Guard

                                               Page 57
Appendix B
Management’s Comments to the Draft Report
_________________________________________________________________________________




                     Acquisition of the National Security Cutter, U.S. Coast Guard

                                               Page 58
Appendix C
Memorandum from Assistant Commandant for Acquisition to Vice Commandant, Request for
SAM Waiver; Deepwater Capability Replacement Project, April 26, 2000
_________________________________________________________________________________




                     Acquisition of the National Security Cutter, U.S. Coast Guard

                                               Page 59
Appendix C
Memorandum from Assistant Commandant for Acquisition to Vice Commandant, Request for
SAM Waiver; Deepwater Capability Replacement Project, April 26, 2000
_________________________________________________________________________________




                     Acquisition of the National Security Cutter, U.S. Coast Guard

                                               Page 60
Appendix D
Review of Structural Design of National Security Cutter, Executive Summary,
Sielski, Robert A., January 8, 2004
________________________________________________________________________________




D




                     Acquisition of the National Security Cutter, U.S. Coast Guard

                                               Page 61
Appendix D
Review of Structural Design of National Security Cutter, Executive Summary,
Sielski, Robert A., January 8, 2004
________________________________________________________________________________




                     Acquisition of the National Security Cutter, U.S. Coast Guard

                                               Page 62
Appendix E
Review of Northrop Grumman Ship Systems Structural Design for the Deepwater National
Security Cutter, Revised, Scott, Robert J., P.E., January 13, 2004
________________________________________________________________________________




                      Acquisition of the National Security Cutter, U.S. Coast Guard

                                                Page 63
Appendix E
Review of Northrop Grumman Ship Systems Structural Design for the Deepwater National
Security Cutter, Revised, Scott, Robert J., P.E., January 13, 2004
________________________________________________________________________________




                      Acquisition of the National Security Cutter, U.S. Coast Guard

                                                Page 64
Appendix E
Review of Northrop Grumman Ship Systems Structural Design for the Deepwater National
Security Cutter, Revised, Scott, Robert J., P.E., January 13, 2004
________________________________________________________________________________




                      Acquisition of the National Security Cutter, U.S. Coast Guard

                                                Page 65
Appendix E
Review of Northrop Grumman Ship Systems Structural Design for the Deepwater National
Security Cutter, Revised, Scott, Robert J., P.E., January 13, 2004
________________________________________________________________________________




                      Acquisition of the National Security Cutter, U.S. Coast Guard

                                                Page 66
Appendix E
Review of Northrop Grumman Ship Systems Structural Design for the Deepwater National
Security Cutter, Revised, Scott, Robert J., P.E., January 13, 2004
________________________________________________________________________________




                      Acquisition of the National Security Cutter, U.S. Coast Guard

                                                Page 67
Appendix E
Review of Northrop Grumman Ship Systems Structural Design for the Deepwater National
Security Cutter, Revised, Scott, Robert J., P.E., January 13, 2004
________________________________________________________________________________




                      Acquisition of the National Security Cutter, U.S. Coast Guard

                                                Page 68
Appendix E
Review of Northrop Grumman Ship Systems Structural Design for the Deepwater National
Security Cutter, Revised, Scott, Robert J., P.E., January 13, 2004
________________________________________________________________________________




                      Acquisition of the National Security Cutter, U.S. Coast Guard

                                                Page 69
Appendix E
Review of Northrop Grumman Ship Systems Structural Design for the Deepwater National
Security Cutter, Revised, Scott, Robert J., P.E., January 13, 2004
________________________________________________________________________________




                      Acquisition of the National Security Cutter, U.S. Coast Guard

                                                Page 70
Appendix E
Review of Northrop Grumman Ship Systems Structural Design for the Deepwater National
Security Cutter, Revised, Scott, Robert J., P.E., January 13, 2004
________________________________________________________________________________




                      Acquisition of the National Security Cutter, U.S. Coast Guard

                                                Page 71
Appendix E
Review of Northrop Grumman Ship Systems Structural Design for the Deepwater National
Security Cutter, Revised, Scott, Robert J., P.E., January 13, 2004
________________________________________________________________________________




                      Acquisition of the National Security Cutter, U.S. Coast Guard

                                                Page 72
Appendix E
Review of Northrop Grumman Ship Systems Structural Design for the Deepwater National
Security Cutter, Revised, Scott, Robert J., P.E., January 13, 2004
________________________________________________________________________________




                      Acquisition of the National Security Cutter, U.S. Coast Guard

                                                Page 73
Appendix F
Memorandum from Assistant Commandant, G-S, to Deepwater Program Executive Officer,
National Security Cutter (NSC) Structural Design Deficiencies, March 29, 2004
________________________________________________________________________________




                     Acquisition of the National Security Cutter, U.S. Coast Guard

                                               Page 74
Appendix F
Memorandum from Assistant Commandant, G-S, to Deepwater Program Executive Officer,
National Security Cutter (NSC) Structural Design Deficiencies, March 29, 2004
________________________________________________________________________________




                     Acquisition of the National Security Cutter, U.S. Coast Guard

                                               Page 75
Appendix G
Deepwater Program Office Brief to Commandant, NSC Structure Update to G-C,
May 8, 2006
________________________________________________________________________________




                     Acquisition of the National Security Cutter, U.S. Coast Guard

                                               Page 76
Appendix G
Deepwater Program Office Brief to Commandant, NSC Structure Update to G-C,
May 8, 2006
________________________________________________________________________________




                     Acquisition of the National Security Cutter, U.S. Coast Guard

                                               Page 77
Appendix G
Deepwater Program Office Brief to Commandant, NSC Structure Update to G-C,
May 8, 2006
________________________________________________________________________________




                     Acquisition of the National Security Cutter, U.S. Coast Guard

                                               Page 78
Appendix G
Deepwater Program Office Brief to Commandant, NSC Structure Update to G-C,
May 8, 2006
________________________________________________________________________________




                     Acquisition of the National Security Cutter, U.S. Coast Guard

                                               Page 79
Appendix G
Deepwater Program Office Brief to Commandant, NSC Structure Update to G-C,
May 8, 2006
________________________________________________________________________________




                     Acquisition of the National Security Cutter, U.S. Coast Guard

                                               Page 80
Appendix G
Deepwater Program Office Brief to Commandant, NSC Structure Update to G-C,
May 8, 2006
________________________________________________________________________________




                     Acquisition of the National Security Cutter, U.S. Coast Guard

                                               Page 81
Appendix G
Deepwater Program Office Brief to Commandant, NSC Structure Update to G-C,
May 8, 2006
________________________________________________________________________________




                     Acquisition of the National Security Cutter, U.S. Coast Guard

                                               Page 82
Appendix G
Deepwater Program Office Brief to Commandant, NSC Structure Update to G-C,
May 8, 2006
________________________________________________________________________________




                     Acquisition of the National Security Cutter, U.S. Coast Guard

                                               Page 83
Appendix G
Deepwater Program Office Brief to Commandant, NSC Structure Update to G-C,
May 8, 2006
________________________________________________________________________________




                     Acquisition of the National Security Cutter, U.S. Coast Guard

                                               Page 84
Appendix H
Memorandum from CG-4 to G-D, NSC Structural Design, June 23, 2006
 ________________________________________________________________________________




                     Acquisition of the National Security Cutter, U.S. Coast Guard

                                               Page 85
Appendix H
Memorandum from CG-4 to G-D, NSC Structural Design, June 23, 2006
 ________________________________________________________________________________




                     Acquisition of the National Security Cutter, U.S. Coast Guard

                                               Page 86
Appendix H
Memorandum from CG-4 to G-D, NSC Structural Design, June 23, 2006
 ________________________________________________________________________________




                     Acquisition of the National Security Cutter, U.S. Coast Guard

                                               Page 87
Appendix I
Memorandum from G-SDW to G-DPM, Status: WMSL Structural Design Deficiencies,
January 4, 2005
________________________________________________________________________________




                     Acquisition of the National Security Cutter, U.S. Coast Guard

                                               Page 88
Appendix I
Memorandum from G-SDW to G-DPM, Status: WMSL Structural Design Deficiencies,
January 4, 2005
________________________________________________________________________________




                     Acquisition of the National Security Cutter, U.S. Coast Guard

                                               Page 89
Appendix I
Memorandum from G-SDW to G-DPM, Status: WMSL Structural Design Deficiencies,
January 4, 2005
________________________________________________________________________________




                     Acquisition of the National Security Cutter, U.S. Coast Guard

                                               Page 90
Appendix I
Memorandum from G-SDW to G-DPM, Status: WMSL Structural Design Deficiencies,
January 4, 2005
________________________________________________________________________________




                     Acquisition of the National Security Cutter, U.S. Coast Guard

                                               Page 91
Appendix J
Structural Concerns, Conclusions and Recommendations, Technical Report: Structural
Assessment of the U.S. Coast Guard National Security Cutter (NSC), Naval Surface Warfare
Center, Carderock Division, Survivability, Structures, and Materials Department, August
2006
________________________________________________________________________________




                      Acquisition of the National Security Cutter, U.S. Coast Guard

                                                Page 92
Appendix J
Structural Concerns, Conclusions and Recommendations, Technical Report: Structural
Assessment of the U.S. Coast Guard National Security Cutter (NSC), Naval Surface Warfare
Center, Carderock Division, Survivability, Structures, and Materials Department, August
2006
________________________________________________________________________________




                      Acquisition of the National Security Cutter, U.S. Coast Guard

                                                Page 93
Appendix J
Structural Concerns, Conclusions and Recommendations, Technical Report: Structural
Assessment of the U.S. Coast Guard National Security Cutter (NSC), Naval Surface Warfare
Center, Carderock Division, Survivability, Structures, and Materials Department, August
2006
________________________________________________________________________________




                      Acquisition of the National Security Cutter, U.S. Coast Guard

                                                Page 94
Appendix J
Structural Concerns, Conclusions and Recommendations, Technical Report: Structural
Assessment of the U.S. Coast Guard National Security Cutter (NSC), Naval Surface Warfare
Center, Carderock Division, Survivability, Structures, and Materials Department, August
2006
________________________________________________________________________________




                      Acquisition of the National Security Cutter, U.S. Coast Guard

                                                Page 95
Appendix J
Structural Concerns, Conclusions and Recommendations, Technical Report: Structural
Assessment of the U.S. Coast Guard National Security Cutter (NSC), Naval Surface Warfare
Center, Carderock Division, Survivability, Structures, and Materials Department, August
2006
________________________________________________________________________________




                      Acquisition of the National Security Cutter, U.S. Coast Guard

                                                Page 96
Appendix K
Memorandum from Deepwater Program Executive Officer and the Assistant Commandant for
Systems to the Commandant, G-D/G-S Roles and Responsibilities, June 28, 2001
_________________________________________________________________________________

I




                      Acquisition of the National Security Cutter, U.S. Coast Guard

                                                Page 97
Appendix K
Memorandum from Deepwater Program Executive Officer and the Assistant Commandant for
Systems to the Commandant, G-D/G-S Roles and Responsibilities, June 28, 2001
_________________________________________________________________________________




                      Acquisition of the National Security Cutter, U.S. Coast Guard

                                                Page 98
Appendix L
Memorandum of Agreement Between the United States Coast Guard and the American Bureau of
Shipping on Coast Guard Cutter Certification Plan, June 9, 1999
_________________________________________________________________________________

J




                       Acquisition of the National Security Cutter, U.S. Coast Guard

                                                 Page 99
Appendix L
Memorandum of Agreement Between the United States Coast Guard and the American Bureau of
Shipping on Coast Guard Cutter Certification Plan, June 9, 1999
_________________________________________________________________________________




                       Acquisition of the National Security Cutter, U.S. Coast Guard

                                                 Page 100
Appendix L
Memorandum of Agreement Between the United States Coast Guard and the American Bureau of
Shipping on Coast Guard Cutter Certification Plan, June 9, 1999
_________________________________________________________________________________




                       Acquisition of the National Security Cutter, U.S. Coast Guard

                                                 Page 101
Appendix L
Memorandum of Agreement Between the United States Coast Guard and the American Bureau of
Shipping on Coast Guard Cutter Certification Plan, June 9, 1999
_________________________________________________________________________________




                       Acquisition of the National Security Cutter, U.S. Coast Guard

                                                 Page 102
Appendix L
Memorandum of Agreement Between the United States Coast Guard and the American Bureau of
Shipping on Coast Guard Cutter Certification Plan, June 9, 1999
_________________________________________________________________________________




                       Acquisition of the National Security Cutter, U.S. Coast Guard

                                                 Page 103
Appendix M
Award Term Determination for Contract HSCG23-02-C-2DW001, Base Period, May 19, 2006
_________________________________________________________________________________




                      Acquisition of the National Security Cutter, U.S. Coast Guard

                                                Page 104
Appendix M
Award Term Determination for Contract HSCG23-02-C-2DW001, Base Period, May 19, 2006
_________________________________________________________________________________




                      Acquisition of the National Security Cutter, U.S. Coast Guard

                                                Page 105
Appendix M
Award Term Determination for Contract HSCG23-02-C-2DW001, Base Period, May 19, 2006
_________________________________________________________________________________




                      Acquisition of the National Security Cutter, U.S. Coast Guard

                                                Page 106
Appendix M
Award Term Determination for Contract HSCG23-02-C-2DW001, Base Period, May 19, 2006
_________________________________________________________________________________




                      Acquisition of the National Security Cutter, U.S. Coast Guard

                                                Page 107
Appendix M
Award Term Determination for Contract HSCG23-02-C-2DW001, Base Period, May 19, 2006
_________________________________________________________________________________




                      Acquisition of the National Security Cutter, U.S. Coast Guard

                                                Page 108
Appendix M
Award Term Determination for Contract HSCG23-02-C-2DW001, Base Period, May 19, 2006
_________________________________________________________________________________




                      Acquisition of the National Security Cutter, U.S. Coast Guard

                                                Page 109
Appendix M
Award Term Determination for Contract HSCG23-02-C-2DW001, Base Period, May 19, 2006
_________________________________________________________________________________




                      Acquisition of the National Security Cutter, U.S. Coast Guard

                                                Page 110
Appendix M
Award Term Determination for Contract HSCG23-02-C-2DW001, Base Period, May 19, 2006
_________________________________________________________________________________




                      Acquisition of the National Security Cutter, U.S. Coast Guard

                                                Page 111
Appendix M
Award Term Determination for Contract HSCG23-02-C-2DW001, Base Period, May 19, 2006
_________________________________________________________________________________




                      Acquisition of the National Security Cutter, U.S. Coast Guard

                                                Page 112
Appendix N
Department of Homeland Security Management Directive 0810.1.: The Office of the Inspector
General, June 10, 2004
_________________________________________________________________________________




                       Acquisition of the National Security Cutter, U.S. Coast Guard

                                                 Page 113
Appendix N
Department of Homeland Security Management Directive 0810.1.: The Office of the Inspector
General, June 10, 2004
_________________________________________________________________________________




                       Acquisition of the National Security Cutter, U.S. Coast Guard

                                                 Page 114
Appendix N
Department of Homeland Security Management Directive 0810.1.: The Office of the Inspector
General, June 10, 2004
_________________________________________________________________________________




                       Acquisition of the National Security Cutter, U.S. Coast Guard

                                                 Page 115
Appendix N
Department of Homeland Security Management Directive 0810.1.: The Office of the Inspector
General, June 10, 2004
_________________________________________________________________________________




                       Acquisition of the National Security Cutter, U.S. Coast Guard

                                                 Page 116
Appendix N
Department of Homeland Security Management Directive 0810.1.: The Office of the Inspector
General, June 10, 2004
_________________________________________________________________________________




                       Acquisition of the National Security Cutter, U.S. Coast Guard

                                                 Page 117
Appendix N
Department of Homeland Security Management Directive 0810.1.: The Office of the Inspector
General, June 10, 2004
_________________________________________________________________________________




                       Acquisition of the National Security Cutter, U.S. Coast Guard

                                                 Page 118
Appendix O
Memorandum from the Coast Guard Chief of Staff (Acting) to the Coast Guard Engineering
Logistics Center, Inspector General Audit of the Acquisition of the National Security Cutter,
October 21, 2005
_________________________________________________________________________________




                        Acquisition of the National Security Cutter, U.S. Coast Guard

                                                  Page 119
Appendix P
Letter from ICGS Director of Contracts to Deepwater Program Executive Officer,
DHS Office of Inspector General Audit of Acquisition of NSC, February 17, 2006
_________________________________________________________________________________




                     Acquisition of the National Security Cutter, U.S. Coast Guard

                                               Page 120
Appendix P
Letter from ICGS Director of Contracts to Deepwater Program Executive Officer,
DHS Office of Inspector General Audit of Acquisition of NSC, February 17, 2006
_________________________________________________________________________________




                     Acquisition of the National Security Cutter, U.S. Coast Guard

                                               Page 121
Appendix P
Letter from ICGS Director of Contracts to Deepwater Program Executive Officer,
DHS Office of Inspector General Audit of Acquisition of NSC, February 17, 2006
_________________________________________________________________________________




                     Acquisition of the National Security Cutter, U.S. Coast Guard

                                               Page 122
Appendix Q
Cutter Employment Standards, U.S. Coast Guard Commandant Instruction 3100.5A (undated)
________________________________________________________________________________




                      Acquisition of the National Security Cutter, U.S. Coast Guard

                                                Page 123
Appendix Q
Cutter Employment Standards, U.S. Coast Guard Commandant Instruction 3100.5A (undated)
________________________________________________________________________________




                      Acquisition of the National Security Cutter, U.S. Coast Guard

                                                Page 124
Appendix Q
Cutter Employment Standards, U.S. Coast Guard Commandant Instruction 3100.5A (undated)
________________________________________________________________________________




                      Acquisition of the National Security Cutter, U.S. Coast Guard

                                                Page 125
Appendix Q
Cutter Employment Standards, U.S. Coast Guard Commandant Instruction 3100.5A (undated)
________________________________________________________________________________




                      Acquisition of the National Security Cutter, U.S. Coast Guard

                                                Page 126
Appendix Q
Cutter Employment Standards, U.S. Coast Guard Commandant Instruction 3100.5A (undated)
________________________________________________________________________________




                      Acquisition of the National Security Cutter, U.S. Coast Guard

                                                Page 127
Appendix Q
Cutter Employment Standards, U.S. Coast Guard Commandant Instruction 3100.5A (undated)
________________________________________________________________________________




                      Acquisition of the National Security Cutter, U.S. Coast Guard

                                                Page 128
Appendix Q
Cutter Employment Standards, U.S. Coast Guard Commandant Instruction 3100.5A (undated)
________________________________________________________________________________




                      Acquisition of the National Security Cutter, U.S. Coast Guard

                                                Page 129
Appendix Q
Cutter Employment Standards, U.S. Coast Guard Commandant Instruction 3100.5A (undated)
________________________________________________________________________________




                      Acquisition of the National Security Cutter, U.S. Coast Guard

                                                Page 130
Appendix Q
Cutter Employment Standards, U.S. Coast Guard Commandant Instruction 3100.5A (undated)
________________________________________________________________________________




                      Acquisition of the National Security Cutter, U.S. Coast Guard

                                                Page 131
Appendix R
Major Contributors to This Report
_________________________________________________________________________________


          Richard T. Johnson, Director, U.S. Coast Guard and Maritime Security Division
          Gary Alvino, Senior Management Analyst
          Robert Greene, Management Analyst
          Andrea Rambow, Management Analyst
          Ronald Rifenberg, Management Analyst
          Andrew C. Smith, Esq., Program Analyst / Presidential Management Fellow




                      Acquisition of the National Security Cutter, U.S. Coast Guard

                                                Page 132
Appendix S
Report Distribution
_________________________________________________________________________________

                  Department of Homeland Security

                  Secretary
                  Deputy Secretary
                  Chief of Staff
                  Deputy Chief of Staff
                  General Counsel
                  Executive Secretary
                  Assistant Secretary for Policy
                  Assistant Secretary for Public Affairs
                  Assistant Secretary for Legislative and Intergovernmental Affairs
                  DHS GAO/OIG Audit Liaison


                  Office of Management and Budget

                  Chief, Homeland Security Branch
                  DHS OIG Budget Examiner

                  Congress

                  Congressional Oversight and Appropriations Committees, as appropriate




                     Acquisition of the National Security Cutter, U.S. Coast Guard

                                               Page 133
Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General (OIG) at
(202) 254-4100, fax your request to (202) 254-4285, or visit the OIG Web site at
www.dhs.gov/oig.


OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to department programs or operations, call the
OIG Hotline at 1-800-323-8603; write to DHS Office of Inspector General/MAIL
STOP 2600, Attention: Office of Investigations - Hotline, 245 Murray Drive, SW,
Building 410, Washington, DC 20528, fax the complaint to (202) 254-4292; or email
DHSOIGHOTLINE@dhs.gov. The OIG seeks to protect the identity of each writer
and caller.




                      Review of the Acquisition of the National Security Cutter
